<html>
<title> - NOMINATION OF DENNIS C. BLAIR TO BE DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 111-125]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-125
 
 NOMINATION OF DENNIS C. BLAIR TO BE DIRECTOR OF NATIONAL INTELLIGENCE 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 22, 2009

                               __________

      Printed for the use of the Select Committee on Intelligence


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

52-505 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

























                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]
                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman
JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk




















                                CONTENTS

                              ----------                              

                            JANUARY 22, 2009

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Bond, Christopher S., Vice Chairman, a U.S. Senator from Missouri     3
Inouye, Hon. Daniel K., a U.S. Senator from Hawaii...............    10
    Prepared statement...........................................    11

                                WITNESS

Blair, Dennis C., Director of National Intelligence-Designate....    12
    Prepared statement...........................................    13

                         SUPPLEMENTAL MATERIALS

Prepared statement of Hon. Russ D. Feingold, a U.S. Senator from 
  Wisconsin......................................................    27
Questionnaire for Completion by Presidential Nominees............    52
January 12, 2009 Letter from Robert I. Cusick, Office of 
  Gevernment Ethics, enclosing a copy of the Public Financial 
  Disclosure Report of Dennis C. Blair...........................    79
January 21, 2009 Letter from Dennis C. Blair to the Honorable 
  Dianne Feinstein...............................................    94
February 4, 2009 Letter from Robert I. Cusick, Office of 
  Government Ethics to Senator Dianne Feinstein..................    96
Responses to Questions for the Record............................   103


 NOMINATION OF DENNIS C. BLAIR TO BE DIRECTOR OF NATIONAL INTELLIGENCE

                              ----------                              


                       THURSDAY, JANUARY 22, 2009

                               U.S. Senate,
           Senate Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
Room SH-216, Hart Senate Office Building, the Honorable Dianne 
Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Rockefeller, 
Wyden, Bayh, Feingold, Nelson of Florida, Whitehouse, Levin, 
Bond, Hatch, Snowe, Chambliss, Coburn, and Risch.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. I am very pleased and honored to 
convene this first public meeting of the Senate Select 
Committee on Intelligence in the 111th Congress. I'd like to 
introduce at least one new member who is here, Tom Coburn, the 
distinguished Senator from Oklahoma. We're delighted to have 
you join the Committee. And Senator Risch is also a new member 
from Idaho and he will be coming shortly.
    I'd like to proceed this way. I'd like to make an opening 
statement. I will then turn to the Vice Chairman for any 
remarks he might have. And the former Chairman of the 
Committee, the distinguished Senator Rockefeller, has asked for 
some time as well. After Admiral Blair gives his opening 
statement, we'll use the early bird rule for five-minute 
rounds. Of course, just prior to Admiral Blair making a 
statement we'll introduce the Senator from Hawaii, Daniel 
Inouye, who will introduce him.
    I would like to just make a couple of comments about the 
functioning of this Committee. Let me begin by saying that I 
very much look forward to working with this Committee and with 
Vice Chairman Bond. We're trying to get the Committee to 
operate smoothly and with the whole staff, Democratic staff and 
Republican staff, working together for the entire Committee.
    It is my major goal to continue the trend of increasing 
oversight of the intelligence community. As one means of doing 
it, Admiral Blair and I discussed having monthly sessions where 
he will come in with the Director of the CIA and other key 
officials to share thoughts on what the intelligence community 
is doing and how well it is doing.
    I really want to acknowledge Senator Rockefeller, the 
former chairman of this committee, who has served as both 
Chairman actually and Vice Chairman over the past six years. 
He's done a terrific job and I hope to do as well.
    Finally, I welcome President Obama's nominee to be Director 
of Intelligence, Admiral Dennis Blair. Admiral Blair is known 
to many of us from his years of service as the CINCPAC, the 
commander-in-chief of the United States Pacific Command. He 
served in the national security field all of his adult life, 
attending the Naval Academy and serving in the Navy from 1968 
to 2002. He worked twice in the White House, first as a fellow 
and then on the National Security Council staff. He worked for 
two years at the CIA as the associate director for military 
support. And he was named to be the director of the Joint Staff 
in 1996.
    Admiral Blair has been a consumer of intelligence through 
his career, as well as the manager of naval and theater 
intelligence assets. He's had interactions at the top levels 
with intelligence agencies, including his two years spent on 
the seventh floor of CIA headquarters down the hall from the 
Director's office.
    I called former Secretary of Defense Bill Perry and asked 
him about Admiral Blair, and here's what he said. He said I 
appointed him to the Joint Chiefs when he was a two-star, and 
he was one of those who could think outside of the box. I think 
that is a real compliment.
    If confirmed, Admiral Blair will become the nation's third 
Director of National Intelligence, following Ambassador John 
Negroponte and Admiral Mike McConnell.
    Now let me just stress this. As one who actually put 
forward the first DNI legislation, the role of the DNI is to be 
the leader of the 16 intelligence agencies that make up the 
intelligence community.
    The law creating the position, the Intelligence Reform and 
Terrorism Prevention Act of 2004 gives the DNI three principal 
responsibilities. He is the head of the intelligence community. 
He is the principal adviser to the President, the National 
Security Council, and the Homeland Security Council for 
intelligence matters related to national security, and he is in 
charge of overseeing and directing the implementation of the 
National Intelligence Program, which means he controls the 
intelligence budget.
    The position of the Director of National Intelligence was 
created so there would be a single leader of the 16 agencies 
that make up the community to see that the stovepipes that 
characterize the pre-9/11 world are done away with. The intent 
was to create an executive with budget and policy authority. He 
would assure that the intelligence community provides the 
President, the Congress, and other policymakers with accurate, 
actionable intelligence.
    That's a substantial challenge that Admiral Blair, if 
confirmed, will face. There is a need for intelligence on what 
is going on around the world, a world that has grown more 
complicated due to the rise of asymmetric warfare and the 
growth of a rigid fanaticism.
    To make matters more difficult, the credibility of 
intelligence analysis was severely damaged by the October 2002 
National Intelligence Estimate on Iraq's weapons of mass 
destruction. This must never happen again, and it is my main 
goal to see that all systems are in place to prevent it from 
ever happening again.
    Also, the legality and morality of intelligence operations 
were thrown into doubt by warrantless wiretapping and the use 
of coercive interrogation techniques. In my view, the President 
is taking necessary action today in introducing Executive 
Orders to close Guantanamo and end CIA coercive interrogation 
practices. I also appreciate the steps the new Administration 
has taken to discuss these matters with me and with the 
Committee. Yesterday the President's Legal Counsel came before 
the Committee and briefed us on these prospective Executive 
Orders. So I hope it signals a new day in having an open and 
cooperative relationship between these branches of government.
    From my review of your record, Admiral Blair, I am hopeful 
that you will be an effective leader for the intelligence 
community in meeting these challenges. I trust you will be part 
of an administration that will restore the partnership of the 
executive and legislative branches, insuring the national 
security and keeping our country safe and strong.
    With that, I turn to Vice Chairman and then the former 
Chairman for their remarks.

OPENING STATEMENT OF CHRISTOPHER S. BOND, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM MISSOURI

    Vice Chairman Bond. Thank you very much, Madam Chairman. I 
have the honor to be the first one to say that in the first 
hearing of this Committee in the 111th Congress, and I 
congratulate publicly on becoming the first woman in history to 
chair the Senate Select Committee on Intelligence. My 
colleagues and I look forward to your leadership on the 
Committee with, with the strong working relationship that you 
and I have had over the years in the Senate I am confident that 
we can and will work together on a vast array of issues of 
intelligence for the benefit of the American people.
    My staff director tells me and I have seen the staff 
relations on the Committee have dramatically improved already. 
There's been tremendous progress made in the day-to-day 
operations of the Committee. I know that you are responsible 
for directing these changes, so I thank you, Madam Chair, and I 
think there will be a great benefit from our staff in this 
Congress as we work together on a bipartisan basis, utilizing 
all of the talents of all of the great staff people we have.
    Madam Chair, I join with you in welcoming Senator Coburn 
and Senator Risch, who have great reputations and will be 
excellent members of the Committee.
    Turning to today's hearing, Admiral Blair, I welcome you 
before the Committee for the hearing on your nomination. I 
extend a warm welcome to your wife Diane and we thank you, 
Diane, for standing by your husband all the years in the 
military and now for your willingness to support him in taking 
on the important position in the service of his country.
    Admiral, as you know, your nomination comes at an important 
time in our nation's history. We face threats of many different 
kinds, of terrorism and other state actions.
    Unfortunately, it seems to me that some tend to forget the 
direct assault on this country on September 11, over seven 
years ago. The lessons we've learned from that day that those 
responsible have avowed to inflict more harm and death upon us. 
Those who forget are content maybe to go back to the older ways 
of doing business. They argue terrorists should be tried as 
ordinary criminals, not terrorists captured on the 
battlefield--unlawful combatants.
    They call for terrorists be given the same constitutional 
protections as our citizens. Benefiting from a government that 
has kept America free from from further attack over the past 
seven years, they forget that our entire way of life is just a 
few minutes away from annihilation if terrorists were to 
succeed in obtaining a weapon of mass destruction or carry out 
an unrecoverable attack on our nation's infrastructure.
    In contrast to those who may forget, however, the fine men 
and women of the intelligence community at large that you will 
be leading, I have met with them continually throughout the six 
years I served on this Committee. And they wake up every day 
remembering the September 11 catastrophe. They understand their 
mission well. Each day it's the same--to keep our nation and 
citizens safe in the face of increasing threats by collecting, 
analyzing and disseminating critical intelligence for 
policymakers and commanders.
    It's critical that the next DNI be committed to playing 
offense against those who threaten our way of life. He must be 
committed to this task, but he cannot afford to be a one trick 
pony who only knows counterterrorism. But you must focus on the 
myriad of other challenges we face in the 21st century.
    Let me pause to say just a word about the man you are 
succeeding. In many different positions Admiral Mike McConnell 
has served this country honorably and with distinction. Three 
years ago he returned to government service, answering the 
President's call to lead the intelligence community. I think 
this country and we owe Admiral McConnell a great debt of 
gratitude.
    Chief among them are his yeoman efforts working with this 
Committee and the Congress on the passage of much, much needed 
updates to the Foreign Intelligence Surveillance Act, first 
with the Protect America Act of 2007 and later with the FISA 
Act amendments of 2008. Amidst strong opposition and oftentimes 
unfair criticism, he acted with great integrity and was thrown 
headfirst into one of the most controversial debates we've had 
in some time.
    The updates of FISA have given our dedicated intelligence 
community professionals the tools and authorities they need to 
stay ahead of terrorists, and they did so, adding things that 
this Committee on a bipartisan basis added to ensure and 
protect the constitutional rights and the privacy rights of 
American citizens.
    Collecting information on a good day is an incredibly 
difficult job. Fortunately, the new authorities, along with 
significant improvements we made in the USA PATRIOT Act, have 
made it a more manageable task.
    Admiral, hope you have spoken with Admiral McConnell about 
what lies ahead. He said you've had some good conversations. 
I'm sure he will offer you unique perspectives and sound 
advice. Only one other person has served in that role, and I 
will speak for my colleagues when I say that Admiral 
McConnell's experience, integrity and dedication to the 
intelligence community were significant and we will miss him.
    Although there have been many improvements under Admiral 
McConnell's leadership as the DNI, we're still a long way from 
full and complete reform of the intelligence community. When 
Congress created the office of the Director of National 
Intelligence in 2005, there was a strong sense that the 
intelligence community lacked clear direction and cohesivenes. 
IRTPA of 2004 tried to fix that by creating a DNI to lead the 
community.
    I voted against the legislation then, and I believe now 
that the DNI was given a tremendous amount of responsibility 
without the requisite authority to do the job. In my view, we 
either should not have created the DNI and just looked to 
strengthen the community relationship, or we should have given 
or should now give the DNI the authority commensurate with the 
responsibility we have landed upon him.
    We need to get this balance right and get rid of turf 
issues that keep popping up. To do this we need two things--
action by Congress and a commitment by you, if you are 
confirmed as the next DNI, to direct the community. Let me 
stress the word ``direct.'' Over the past year Admiral 
McConnell started referring to himself as a coordinator rather 
than a director, in recognition that he did not have the 
statutory authority to which I refer.
    That point is the utmost of the utmost importance, Admiral. 
The House and Senate Committees, oversight committees, are 
divided on this issue, but it's quite clear in comparing the 
House and Senate intelligence authorization bills that never 
became law, I might add, that the Senate generally favors a 
director and the House favors a coordinator. We can't keep 
looking in both directions, though, and your views on this 
matter will be very important. And I'd like to know your 
position on this before we leave here today.
    Speaking of authorization bills, you may be aware this 
Committee has not had an annual authorization bill signed into 
law for the last four years. The Chair and I are dedicated to 
breaking that record and getting this Committee back to 
bipartisanship, passing authorizations, hopefully in the very 
near future.
    I realize there are some individuals who haven't minded the 
absence of an intel bill, but I believe our inability to get a 
bill signed has been a serious mistake. It made the people's 
oversight through this Committee less relevant and it supports 
the notion that congressional oversight is dysfunctional. This 
is a charge leveled by many of the commissions and committees 
that have looked at intelligence.
    Authorization of the intelligence programs is important 
because they foster a good working relationship between this 
Committee and the community; ideas flow both ways, everyone 
works together to make sure that the IC can fulfill its 
ultimate mission of keeping this country safe.
    But it also gives the Committee in its oversight role an 
opportunity to offer effective solutions when necessary. For 
the past several years, I have sponsored a number of what I 
like to call good government provisions that I hope will soon 
become law, provisions that attempt to restore accountability 
and sound fiscal management to the IC.
    For example, we would give the DNI authority to conduct 
accountability reviews of an IC element or personnel in 
relation to a failure or deficiency within the community. Too 
often we've seen poor judgment or serious mistakes go 
uncorrected or, even worse, at times people who exercised poor 
judgment have been promoted or otherwise rewarded, and I think 
that's unacceptable. Giving the DNI the authority to step in 
and conduct these reviews will encourage accountability and 
good practices.
    Admiral, I hope that when you're confirmed as the DNI you 
will use this authority to send a message that poor performance 
will not be tolerated, let alone rewarded. It's not a matter of 
micromanaging the agencies or overlooking the shoulder of the 
agencies' directors. It's about ensuring that there be a clear 
standard of accountability throughout the community and 
regaining the confidence in the community's analysis that has 
certainly had its share of problems in the recent past. You'll 
be responsible for this, and the Committee will hold you 
responsible for it.
    We require the DNI to conduct annual personnel level 
assessments. We want to make sure we have enough fine men and 
women to do the job, but growing the IC without a clear plan 
could create an unnecessary bureaucracy and waste hard-earned 
taxpayer dollars.
    Third, I have sponsored a number of related provisions 
designed to get a handle on an acquisition and budget process 
that has grown out of control. At a time when the taxpayers of 
this country are struggling to pay their bills, they do not 
want to see their hard-earned tax dollars squandered on 
programs that do not work. They want to see the intelligence 
community spending the taxpayers money wisely.
    I'm not suggesting the severe budget cuts that at the 
conclusion of the Cold War gutted our intelligence capabilities 
should be reenacted. Rather, the DNI must make sure that the 
money is being spent in the right place to address the threats 
we face now and expect in the future.
    In this regard, Senator Mikulski and I have sponsored a 
solution that this Committee has recommended to address our 
nation's overhead architecture system that promises to save the 
taxpayers, we believe, potentially billions of dollars. We can 
talk more about that in another setting.
    It is my hope, Admiral Blair, that all these provisions 
will be signed into law soon and that this Committee will be on 
track with its authorization process. If you're confirmed, when 
you're confirmed, I look forward to working with you on these.
    Additionally, the Committee will work with you and look to 
you to get a handle on the agency's budget and personnel 
levels. We expect you will find innovative ways to create 
career paths and opportunities that are attractive to employees 
so the IC can not only recruit but retain the best.
    Additionally, the IC needs a strong leader who can stand on 
equal footing with the Secretary of Defense and other Cabinet 
officials. There may be occasions when the interests of the 
Secretary of Defense are not compatible with the intelligence 
community interests. I expect that, if necessary, you will be 
assertive in these cases and not back down. The intelligence 
community deserves no less from you.
    I also expect you to exert the appropriate authority over 
the CIA. When Congress created the DNI, we intended the 
Director of CIA to be subordinate to the DNI. It's the DNI, not 
the CIA Director, who is the leader of the IC. It follows, 
then, that it is the DNI who should answer to and have access 
to the President.
    I understand in practice this may not always be easy. No 
one likes to rock the boat point, quite simply. The CIA 
Director nominee is fortunate to have a good relationship with 
the President. That should not be a deterrent. I am confident 
that years of command experience will help you navigate the 
situation and be the leader that Congress intends.
    Admiral, if you do not believe that you have authority to 
direct the IC, as Congress intends, I expect and hope that you 
will tell this Committee exactly what authorities you need to 
do this job right.
    Today I'm also interested in hearing your thoughts on the 
CIA's interrogation and detention program, particularly in 
light of past comments about the benefits of aggressively 
arresting and interrogating terrorists and the President's 
stated intention to close the detention facility at Guantanamo. 
Obviously, closing that facility raises a host of problems, as 
evidenced by the recent decision in the case of the 20th 
hijacker.
    For example, do we transfer detainees here to the United 
States for trial? I don't know of any city or town around this 
country that would be thrilled to have Khalid Shaykh Mohammed 
or Abu Zubaydah living down the street. And under what evidence 
rules should they be tried?
    These are not ordinary bank robbers. They are terrorists 
apprehended overseas, sometimes through intelligence means that 
could not and must not be disclosed in court.
    Another option that isn't much better is releasing them 
overseas. The Pentagon's recent report found that 61 released 
detainees from Guantanamo have returned to the battlefield to 
attack and kill our soldiers and other innocent civilians.
    Additionally, we read in the newspapers today that the 
President will be issuing an Executive Order to implement the 
Army field manual. This will apply to all agencies unless, of 
course, the President issues another Executive Order on 
enhanced techniques that certain agencies could use.
    If confirmed as the DNI, you will be the intelligence 
community's voice on these important matters, so I hope we can 
have a vigorous and candid discussion today and that you will 
share your ideas on possible solutions to these concerns.
    I also have some concerns based on the testimony of the 
Attorney General nominee last week and my conversation with him 
in my office yesterday. He was asked whether he would honor the 
certifications filed by the former Attorney General that would 
allow dismissal of lawsuits against communication providers who 
assisted with the President's terrorist surveillance program. 
Regrettably, instead of a yes or no, and he said he would not 
revoke it unless circumstances changed.
    I find it troubling that he hasn't really explained what he 
means by that and the circumstances have already occurred; 
there is no change to be had.
    Ensuring that the IC has the cooperation of third parties 
is essential to intelligence collection. If the lawsuits are 
not dismissed, we jeopardize future cooperation. Now the FISA 
Act received 70 votes in the Senate, a strong majority in the 
House, and the constitutionality of its predecessor, the 
Protect America Act, was just reaffirmed by the FISA appellate 
court, which is the Court of review, so the legislative and 
judicial bodies have spoken on this matter.
    I will be interested in hearing your thoughts on whether 
these patriotic companies should be protected from frivolous 
lawsuits and what your recommendation to the new Attorney 
General would be.
    Finally, I have some concerns raised by the Inspector 
General's report finding that you violated conflict of interest 
standards, and we will have questions about that in the 
hearing.
    At this point, I look forward to entering into a discussion 
with you and this Committee. Madam Chair, the intelligence 
community cannot afford to be without a strong commander. I 
hope this Committee can act on the nomination quickly and get 
it to the floor for a positive vote.
    Admiral, I look forward to hearing your views on the 
direction of the DNI and your efforts to keep our nation and 
families safe from attack. You have a long and distinguished 
service career for this nation. I congratulate you on your 
nomination. I thank you for being willing to take on the 
headache, and we look forward to hearing from you.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much. Vice Chairman 
Bond.
    Senator Rockefeller.
    Senator Rockefeller. Thank you, Madam Chair. I congratulate 
you from the bottom of my heart for your ascendancy to the 
Chair. It's a remarkable position. You yourself will be in a 
position to make major changes in the attitudes, the 
depoliticization and the availability of intelligence to our 
Committee as a whole, things that we've been fighting for for a 
long time against great odds. So I congratulate you on taking 
the gavel and I thank you for giving me the opportunity to 
speak.
    I'm going to speak briefly, I might add. I welcome the 
Admiral and my distinguished chairperson on many committees, 
Senator Inouye from Hawaii.
    Let me say a few words on why I think this is a very 
promising time for our intelligence community and for our 
national security.
    We have an opportunity, Admiral Blair, to make a very sharp 
turn towards new intelligence policies that I believe will 
bolster our counterterrorism efforts and strengthen our 
national security in general.
    Intelligence must be accurate. It must be accurate. It must 
be politically neutral. There must be no spin. And it must be 
collected with methods that enjoy a bipartisan consensus and 
both be legal and effective.
    To ensure this, secret intelligence activities must be 
subject to rigorous congressional oversight. We've discussed 
that. I feel very strongly about that. All of us on this 
Committee have. We have not come to terms with that in recent 
years. We're beginning to, and I feel a new day coming with 
your ascendancy.
    We are the only independent reviewers of secret 
intelligence activities that exists, and we are the only 
outside check on activities that are not legal or are not 
effective--the two Intelligence Committees, the House and the 
Senate. That's all there is. We're the only ones that can do 
this oversight. So we have to have the information.
    Oversight should not be adversarial. It's silly when it is, 
harmful when it is. It causes distractions from the realities 
when it is. And it need not be that way. It is a necessary 
partnership between the Executive Branch and the Congress.
    I fought hard to remove politics from intelligence and to 
restore Congress's vital oversight role since I joined the 
Committee in 2001. And the Chair and I have done that, together 
with others. I'm going to keep fighting for it now. I don't 
want to get into who was at fault for this cycle that we were 
caught in over the past several years, because that serves no 
purpose. Instead, I want to look ahead to what is possible now.
    I think there's a real chance that in this new year we can 
have a new start. We can and should debate about how we go 
about collecting and analyzing intelligence--for example, on 
interrogation policies--but we can do so without the stain of 
political considerations. We really can. It's hard with all the 
media and everybody else trying to pick a fight here and there, 
but we can do that and we need to do that in the nation's 
interest, which is all we care about.
    Between the Executive and Legislative branches we can and 
we should engage and debate these policies, but we can do that 
in partnership. We can do that by being in touch with each 
other much more often than we are--informally as well as 
formally--with the knowledge that more information exchanges 
and deliberations give rise to better intelligence collection 
and intelligence analysis.
    In short, we can recognize that we're all on the same team. 
It's not sort of been that way. It's against the national 
interest if it isn't that way.
    So, with this in mind, I congratulate Admiral Denny Blair 
on his nomination to be our Director of National Intelligence. 
We've had a chance to talk. I spent a lot of time looking back 
over your history, learning about you, talking. We talked about 
that. And I found it very, very constructive.
    These conversations that we've had give me confidence that 
you will follow in the footsteps of Mike McConnell as an 
excellent leader of our intelligence community.
    The Director of National Intelligence is one of the most 
important and demanding jobs in Washington. I tend to say it's 
one of the two or three most important jobs in the country. 
That includes the presidency. I put it at that level. You are 
responsible for protecting this nation under the leadership of 
the President.
    It requires somebody with tremendous leadership and 
management skills. The next DNI will take this task at a time 
when we are fighting two wars as well as a fight against a 
global terrorism network, the reach of which we do not know 
even now, not to mention the enormous long-term strategic 
challenges.
    Admiral Blair brings a wealth of valuable experience to the 
job which I think will be apparent in the hearing today as we 
ask questions. I congratulate you on your nomination. I 
congratulate you on your capacity for leadership and 
decisionmaking. That's one of the things we talked about.
    When somebody has been commanding battleships and four-
stars and CINCPAC and all the rest of it, you come into a very 
difficult position because you have been accustomed to making 
policy and you will be, but you will be doing it under the 
leadership of the President of the United States and in 
combination working with us, something which Admirals generally 
don't have to do, to work with Congressional committees.
    But this is the way the Constitution and our forefathers 
have fated our relationship, and I think it's a very good one 
and one that I look forward to and one that you look forward 
to. I know that because we've talked about it.
    I ask you to work closely with us to ensure that our nation 
always has accurate, reliable information, and that it's 
collected in a way that makes this country proud, and is 
analyzed without the taint of political influence. We cannot 
have that any more. We cannot have that.
    With that, Madam Chairman, I thank you again, congratulate 
you again, and wish you well in what will be your very strong 
leadership of this Committee.
    Chairman Feinstein. Thank you very much, Senator 
Rockefeller.
    And now we will go to the distinguished Senator from Hawaii 
and the new Chairman of the Appropriations Committee, Senator 
Daniel Inouye, for an introduction.
    Welcome, Senator.

OPENING STATEMENT OF HON. DANIEL K. INOUYE, A U.S. SENATOR FROM 
                             HAWAII

    Senator Inouye. Madam Chair and distinguished Members of 
the Committee, I'm deeply honored and pleased to present to you 
for your consideration----
    Chairman Feinstein. Senator, that microphone, if you could 
pull it a little bit closer and up. These mics for some reason 
are lower today.
    Senator Inouye. I think it's tapped. [Laughter.]
    Senator Inouye. I'm pleased and honored to appear before 
you to present the President's nominee for Director of National 
Intelligence, Admiral Dennis Blair.
    I've known the Admiral for over ten years. I've come to 
know him rather well through my work as Chairman of the Defense 
Appropriations Subcommittee. As one who is deeply involved in 
Asia-Pacific security issues, and through his service as the 
Commander of Pacific Forces, he was in command of all forces in 
the Pacific.
    Well, through his experience I quickly learned that Admiral 
Blair is a man of brilliance and extraordinary intelligence. 
For example, very few Americans realize this but he is very 
fluent in Russian, and there are not too many of us in the 
Congress or in the Senate who can speak anything besides 
English.
    He is a creative thinker. He has a wealth of knowledge of 
history, global affairs and national security. Having commanded 
the United States forces in a region that stretches from the 
west coast of the United States to the western part of India, 
and from Antarctica to the North Pole, he knows how to manage 
and integrate a diverse, widespread organization.
    That skill I believe will serve him well as the nation's 
third Director of National Intelligence, overseeing 16 
different agencies and organizations that make up our 
intelligence community. I have no doubt that in Admiral Blair's 
heart and mind service to our country will always come first.
    Admiral Blair has another quality that impresses me very 
much. He's not afraid to stand up and speak out to his 
commander if he believes a policy is misguided or if something 
is being done wrong. That sort of candor and truth-telling many 
believe is the reason why he was passed over for the 
chairmanship of the Joint Chiefs by the outgoing 
Administration. It's painful to bring this up, but I think we 
should know. The new Administration I believe wants that sort 
of frankness and critical thinking that Admiral Blair will 
bring to this job.
    Admiral Blair has earned our unhesitating support, and I'm 
confident that a full and fair consideration of his record will 
be most impressive to my colleagues.
    I thank you very much, Madam Chair.
    [The prepared statement of Senator Inouye follows:]
     Statement of Hon. Daniel K. Inouye, a U.S. Senator from Hawaii
    Madame Chair and Members of the Committee, thank you for the 
opportunity to be here today to recommend a prompt and favorable 
reporting to the Senate of the nomination of Admiral Blair as Director 
of National Intelligence.
    I have known Admiral Blair for more than 10 years. I have come to 
know him through my work as Chairman of the Defense Appropriations 
Subcommittee, as one deeply involved in Asia-Pacific security issues, 
and through his service as the Commander of the United States Pacific 
Command, which made him responsible for all U.S. forces in the Asia-
Pacific region.
    Through that experience, I quickly learned that Admiral Blair is a 
man of brilliance and intelligence. He speaks Russian fluently. He is a 
creative thinker. He has a wealth of knowledge of history, global 
affairs, and national security. He is insightful on a wide range of 
issues--from how our nation's dependence on imported oil has influenced 
our security strategy, to how certain parts of the world have been used 
as a staging ground and transit for terrorism directed at the United 
States, to military developments in Asia, and much, much more.
    Having commanded U.S. forces in a region that stretches from the 
west coast of the U.S. to the western border of India, and from 
Antarctica to the North Pole, he knows how to manage and integrate a 
diverse and widespread organization. That skill, I believe, will serve 
him well as our nation's third Director of National Intelligence, 
overseeing 16 different agencies and organizations that make up our 
intelligence community.
    I have no doubt that in Admiral Blair's heart and mind, service to 
our country will always come first.
    Admiral Blair also has another quality that impresses me very much. 
He is not afraid to stand up and speak out to his commander if he 
believes a policy is misguided or if something is being done wrong. 
That sort of candor and truth-telling, many believe, is the reason why 
he was passed over for the chairmanship of the Joint Chiefs by the 
outgoing Administration. The new administration, I believe, wants that 
sort of frankness and critical thinking that Admiral Blair will bring 
to his job.
    Admiral Blair has earned my unhesitating support, and I am 
confident that a full and fair consideration of his record will impress 
my colleagues.

    Chairman Feinstein. Thank you very much, Senator Inouye.
    And now, Admiral, we will turn to you.

   STATEMENT OF ADMIRAL DENNIS C. BLAIR, U.S. NAVY, RETIRED, 
          DIRECTOR OF NATIONAL INTELLIGENCE-DESIGNATE

    Admiral Blair. Thank you very much, Madam Chairman, Mr. 
Vice Chairman, Members of the Committee.
    It is an honor to appear before you today and, if 
confirmed, I will seek your counsel and your advice and seek it 
frequently.
    Nothing is more important to national security and the 
making and the conduct of good security policies than timely, 
accurate, objective and relevant intelligence. President Obama 
has made it clear to me and made it clear to the American 
people that he expects independent analysis. He wants the 
facts, he wants all points of view. And, if confirmed, I will 
strive to meet his expectations.
    The United States right now is engaged in three campaigns 
with immediate threats to American lives and interests--the 
global struggle against anti-American terrorists who have 
global reach, the campaign in Iraq, the campaign in 
Afghanistan. And these three campaigns right now absorb the 
bulk of our intelligence resources. We have to provide 
intelligence at all levels to prosecute those campaigns 
successfully.
    But there are many additional near-term issues that are of 
concern to us. They include North Korea, Iran, peace and 
progress in South Asia, and of course the Israeli-Palestinian 
violence which flared up recently. The intelligence community 
also needs to address long-term challenges--the growing power 
and influence of China, India and other developing countries, 
as well as both threats and opportunities that come with 
failing states.
    But threats to America's national security go well beyond 
the nation state-based threats of the past. In addition to 
anti-American terrorists with global reach, there are weapons 
proliferators, drug traffickers, cyber attackers, all of whom 
don't recognize borders and pose threats to us. We also cannot 
lose sight of the new issues that may pose grave dangers, such 
as global warming, energy supplies, food prices, pandemic 
diseases.
    I also believe it's important to identify opportunities as 
well as threats, and this is an extremely important dimension 
to the work of intelligence agencies. For example, the United 
States must hunt down those fanatic Muslim terrorists who are 
seeking to do us harm. At the same time, the intelligence 
community also needs to support policymakers who are trying to 
engage and work with influential Muslim leaders who believe and 
who are working for a progressive and peaceful future for their 
religion and for their nations.
    The 2004 Intelligence Reform and Terrorist Prevention Act 
spells out the responsibilities of the DNI, as I have been 
reminded. If confirmed, I will work to carry out the intent of 
that legislation. The DNI must keep the intelligence community 
on the cutting edge of innovation. Developing a high quality 
work force is also the DNI's responsibility. We should give 
intelligence professionals the right missions, clear away 
obstacles that keep them from doing the job, and then have the 
privilege and the pleasure of watching them produce amazing 
results.
    All officers of the intelligence community, especially the 
most senior officers, must conduct themselves in a manner that 
earns and retains the public's trust. I strongly believe in 
transparency and accountability in the missions whose work must 
necessarily take place largely out of public view.
    Before closing these brief remarks, let me make a few 
points and make them clearly. I do not and I will not support 
any surveillance activities that circumvent established 
processes for their lawful authorization. I believe in the 
importance of review and regulation. I believe in the 
importance of independent monitoring, including that of this 
Committee and the Congress, to prevent abuses and to protect 
the privacy and civil liberties of Americans.
    Torture is not moral, not legal, not effective. The U.S. 
government will have a clear and consistent standard for 
treatment of detainees. The Guantanamo detention center will be 
closed. It's become a damaging symbol.
    Madam Chairman, Mr. Vice Chairman, members of the 
Committee, if confirmed I will work closely with you and with 
the Congress. The leadership of the intelligence community must 
earn the support and trust of this Committee if it is to earn 
the support and trust of the American people.
    When now-President Obama first called me about this job, I 
wasn't expecting it. But in those weeks since I've had a chance 
to talk with you. I've had a chance to think about the job. I 
have had a chance to learn about the job. And it seems to me 
that much of my background, experience and ambitions point me 
towards that job, and I would very much like it and I would 
like to be confirmed for that job. I think we have extremely 
important work to do together, and I hope that I can be 
confirmed in order to undertake that work.
    Thank you very much.
    [The prepared statement of Admiral Blair follows:]
                      Statement of Dennis C. Blair
    Madam Chairman, Mr. Vice Chairman, Members of the Committee: It is 
a distinct honor and privilege to appear before you today. I am also 
honored that President Obama has placed his trust and confidence in me, 
deciding to nominate me to the position of Director of National 
Intelligence.
    I want to express deep appreciation and thanks to Chairman 
Feinstein, and to Vice Chairman Bond, for holding today's hearing, and 
I look forward to your questions. In addition, let me say from the 
outset, if confirmed, I look forward very much to working with you on 
the many important issues before the Intelligence Community, and before 
the Nation. This Committee has a wealth of experience and wisdom. If 
confirmed, I will seek your counsel and advice--and seek it 
frequently--in addressing the many challenges ahead.
                       importance of intelligence
    Nothing is more important to national security and the making and 
conduct of good policy than timely, accurate, and relevant 
intelligence.
    Nothing is more critical to accurate and relevant intelligence than 
independent analysis.
    The President has made clear to me, and to the American people, 
that he wants to hear the facts, he expects independent analysis, and 
he wants to hear all points of view.
    As John Adams famously said, ``Facts are stubborn things.'' The 
best national security decisions take account of the facts on the 
ground. Sometimes those facts are unpleasant; sometimes they are 
inconvenient; often they are ambiguous. Whatever they are, they must be 
presented accurately and fully. Beyond the facts on the ground, 
interpretations of their significance differ. There is an obligation to 
bring those differing views forward. There is an obligation to speak 
truth to power. If confirmed, I will fulfill that obligation 
personally, and I will instill respect for that obligation in those who 
work for me.
                       threats and opportunities
    Let me describe some of the key challenges the intelligence 
services face in supporting policymakers as well as troops, diplomats, 
and law enforcement officials in the field.
    The Intelligence Community is charged with the task of assessing 
threats and providing timely warning. This Committee holds an annual 
worldwide threat assessment hearing. If I am confirmed, it will be my 
privilege to appear before you on that topic.
    The United States is engaged in three campaigns in which there are 
immediate threats to American lives, properties and interests. First is 
the campaign against anti-American terrorists with global reach who 
seek to harm us or our allies, partners and friends. These groups 
include al-Qaeda and other extremist organizations as well as the 
groups they inspire but do not control. The second campaign is in Iraq 
and the third in Afghanistan, where the United States has deployed 
troops, diplomats, and nation builders. Providing intelligence support 
for these three campaigns consumes the largest share of Intelligence 
Community resources.
    The day-to-day demands for tactical intelligence for these 
missions, geographically concentrated in Southwest Asia, cannot be 
allowed to crowd out the mission of building a deeper understanding of 
the complicated interlocking dynamics of the entire region, from 
Kashmir to Istanbul. We will need that understanding as we forge a 
strategy for the region.
    Additional near-term issues of concern are many. They include North 
Korea's nuclear weapons and missile programs; Iran's nuclear 
capabilities and intentions, as well as its missile program; the 
security of Pakistan's nuclear arsenal; and peace and stability in 
South Asia. They include Israeli-Palestinian violence, with its 
possibilities for escalation and implications for regional stability.
    Many important threats to American national security go well beyond 
the traditional nation-state-based threats of the past. The 
intelligence services need to have open minds, change traditional ways 
of thinking and be bold and creative in identifying possible threats to 
the nation. It is the responsibility of the intelligence services to 
penetrate and understand these new transnational threats just as 
thoroughly as we did the Soviet Union in the days of the Cold War.
    In addition to anti-American terrorists with global reach, our 
adversaries include organizations--some nation states, some private and 
some criminal--that proliferate weapons of mass destruction and the 
means to deliver them.
    They include organizations trafficking in drugs.
    They include those using the global communications system to learn 
our secrets and proprietary information to compete with us or attack 
us.
    There are additional trends that affect American security, and may 
pose grave dangers--global warming, energy supplies, food prices, and 
pandemic diseases, among others.
    Today's threats to American interests are more diffuse, more fast-
paced, and seem more urgent than ever because of the trends of 
globalization--worldwide transportation, worldwide information systems, 
the spread of scientific and technical knowledge, an interlocking 
global economy, and the ubiquitous and incessant news cycle. The 
intelligence agencies must look beneath the breathless headlines to 
understand the facts and their significance for American interests.
    The Intelligence Community also needs to address the longer-term 
geopolitical challenges. How the United States adjusts to and manages 
the growing power and influence of China, India, and key countries in 
the developing world is a major long-term challenge for policymakers. 
The Industrial Revolution caused a centuries-long shift in power to the 
West; globalization is now shifting the balance again. The Global 
Trends 2025 report is one example of the Intelligence Community's 
contribution to this discussion.
    Failing states pose another set of challenges. Countries without 
effective governments, with internal economic disparities, and with 
domestic religious, ethnic, or tribal tensions can slip into anarchy, 
with tragic consequences for their own citizens, and with potential 
dangers to other countries. Somalia is one example, among many.
    The Intelligence Community has global responsibilities. We need to 
understand better the interplay of trends, threats, and opportunities 
in Latin America and Africa, so that our leaders can forge wise 
policies and take effective actions as the importance of these regions 
increases.
    Identifying opportunities as well as threats is an extremely 
important balance for intelligence agencies to strike.

    <bullet>  While the United States must hunt down those terrorists 
who are seeking to do us harm, the Intelligence Community also needs to 
support policymakers who are looking for opportunities to engage and 
work with Arab and Muslim leaders who are striving for a progressive 
and peaceful future for their religion and their countries;
    <bullet>  While the United States must understand China's military 
buildup--its extent, its technological sophistication and its 
vulnerabilities--in order to offset it, the Intelligence Community also 
needs to support policymakers who are looking for opportunities to work 
with Chinese leaders who believe that Asia is big enough for both of us 
and can be an Asia in which both countries can benefit as well as 
contribute to the common good;
    <bullet>  While the United States needs to understand Russia's 
military plans and ambitions in what it calls its ``near abroad,'' the 
Intelligence Community also needs to help policymakers understand the 
dynamics of European security issues including the actions of our 
allies and friends, in order to craft policies that will support 
American objectives.
    <bullet>  While the United States must identify weak places in 
worldwide medical surveillance systems and prepare for pandemics, the 
Intelligence Community can also find opportunities to work with 
governments and other organizations on behalf of our common interest in 
strengthening the world's early warning, defensive and recovery 
systems;
    <bullet>  While policymakers need to understand anti-American 
leaders, policies and actions in Iran, the Intelligence Community can 
also help policymakers identify and understand other leaders and 
political forces, so that it is possible to work toward a future in 
both our interests;
    <bullet>  While traditional friends of the United States disagree 
with individual American policies on specific countries and issues, the 
Intelligence Community can also help policymakers identify the many 
government leaders and influential private leaders--in Europe, in Asia 
and elsewhere--who share American ambitions for the future and are 
willing to work together for the common good.

    Identifying these opportunities for American policy and statecraft 
is as important as predicting hostile threats.
    There is a final cluster of subjects on which intelligence agencies 
must provide good advice to policymakers and officials taking action:

    <bullet>  Science and technology developments--where is innovation 
taking place around the world, and how can it help or hurt American 
interests?
    <bullet>  Economics and finance--how is power being redistributed, 
and what are the developments that will make a difference to the United 
States?

    For these areas, and also for many of the others outlined here, the 
analysts and information in our intelligence agencies are not the sole, 
and often not the best, resources. Private organizations--businesses as 
well as consultants--think tanks, NGOs, universities, national labs, 
federally funded research and development centers, other government 
analysts, and similar international and foreign centers have a great 
deal to offer.
    It is the responsibility of the Director of National Intelligence 
to take advantage of outside information sources--databases and 
experts--and to add the insights gained from secret intelligence to 
present policymakers the clearest possible picture of the nature of 
these trends, and the potential effects that alternative American 
policies can have on them.
                the role and responsibilities of the dni
    The office of the DNI is not yet four years old. Ambassador 
Negroponte and Admiral McConnell have made important progress during 
that period of time. A wider range of analysis, and more points of 
view, are now brought to the attention of policymakers. Information 
sharing on terrorism-related information has improved. Joint Duty in 
the Intelligence Community, essential for building a unified workforce, 
is starting to take hold. Security clearances take less time. These are 
important contributions, and they should be recognized. At the same 
time, the Committee knows that much work lies ahead. For my part, I 
want to acknowledge the contributions that those who lead the 
Intelligence Community already have made.
    The 2004 Intelligence Reform and Terrorism Prevention Act spells 
out the role and responsibilities of the DNI. The Act specifies many 
important improvements in the organization and functioning of the 
country's intelligence services. My approach is a straightforward one. 
If confirmed, I will work to fulfill the intent of this legislation.
    The DNI is the principal adviser to the President, to the National 
Security Council, and the Homeland Security Council for intelligence 
matters related to the national security. His responsibility is to 
provide timely, accurate and relevant intelligence.
    Leading the Intelligence Community, the DNI needs to satisfy the 
strategic intelligence requirements of policymakers as well as the 
tactical requirements of military units, diplomats, and front-line 
officers of the Department of Homeland Security and state and local law 
officials. The DNI needs to lead the integration of intelligence 
sources--human, signals, geospatial, measurement and signature, and 
open source. Such integration mutually empowers, and maximizes, the 
contribution of each intelligence source. The DNI needs to ensure that 
the whole of the national intelligence enterprise is always more than 
the sum of its parts. I believe the hardworking, smart, and dedicated 
officials of the intelligence agencies, along with the resources the 
Congress has provided, are adequate to provide the right kind and 
amount of intelligence support to all who need it from the President 
down to the soldier in the field.
    The DNI should place the emphasis on managing others, not doing 
their work himself. The DNI should hold agencies accountable for doing 
their jobs, but should not replicate activities that individual 
agencies perform well. The DNI should concentrate on activities that no 
single agency can perform by itself, and use his authority to encourage 
and enforce combined action that brings together the strengths of all 
the intelligence services to accomplish the common missions.
    The DNI must keep the Intelligence Community at the cutting edge of 
innovation. The business of intelligence has been radically 
transformed, and continues to be driven, by the information revolution. 
In a generation's time, the Intelligence Community has gone from an 
organization hunting secrets, to an organization interpreting the vast 
ocean of information available every day--even as it still hunts 
secrets. How the Community collects, analyzes and provides added value 
to policymakers and operators is profoundly affected by this changing 
and dynamic information environment.
    Developing a high-quality workforce for the future is the DNI's 
responsibility. Any organization is only as good as its people. I have 
been deeply impressed over many years with the many smart, dedicated 
and brave professionals in the Intelligence Community workforce. It is 
the DNI's responsibility to give them the right missions, to clear away 
obstacles in their path, and then it is the DNI's privilege and 
pleasure to watch them produce amazing results. It has been an honor to 
work with them, and, if I am confirmed, it will be an honor to lead 
them.
                the role of intelligence in a democracy
    All officers of the Intelligence Community, and especially its most 
senior officer, must conduct themselves in a manner that earns and 
retains the public trust. The American people are uncomfortable with 
government activities that do not take place in the open, subject to 
public scrutiny and review.
    Unlike many other parts of the government, the activities of 
intelligence officers must often be secret to be effective. Therefore, 
there is a special obligation for the leadership of the Intelligence 
Community to communicate frequently and candidly with the oversight 
committees, and as much as possible with the American people. There is 
a need for transparency and accountability in a mission where most work 
necessarily remains hidden from public view.
    The first part of building trust is building relationships. I want 
to establish a relationship of candor and trust with each Member of 
this Committee and, if confirmed, work to sustain and enhance that 
trust. Equally important, I will work to rebuild a relationship of 
trust with the American people.
    The second part of building trust is to carry out the mission of 
the Intelligence Community in a manner consistent with our Nation's 
values, consistent with our Constitution and consistent with the rule 
of law. The intelligence agencies of the United States must respect the 
privacy and civil liberties of the American people, and they must 
adhere to the rule of law.
        lawful surveillance, lawful detention and interrogation
    In a dangerous world, government agencies need authority to collect 
intelligence on terrorists before they strike, in order to protect the 
American people. But in a free society, that authority cannot be 
unlimited. It must be exercised pursuant to law.
    I do not and will not support any surveillance activities that 
circumvent established processes for their lawful authorization. I 
believe in the importance of review and regulation of the use of those 
surveillance authorities. I believe in the importance of independent 
monitoring, including by the Congress, to prevent abuses and protect 
civil liberties.
    I believe strongly that torture is not moral, legal, or effective. 
Any program of detention and interrogation must comply with the Geneva 
Conventions, the Conventions on Torture, and the Constitution. There 
must be clear standards for humane treatment that apply to all agencies 
of U.S. Government, including the Intelligence Community.
    I believe the U.S. Government must have clear and consistent 
standards for treatment of detainees. Those standards must comply with 
the Detainee Treatment Act, the Convention Against Torture, and Common 
Article 3 of the Geneva Conventions. All who are responsible for 
treatment of detainees must receive training on those standards, and 
training must be reinforced regularly. It is not enough to set a 
standard and announce it. Regular reinforcement and oversight is 
necessary to make sure the standards are being applied correctly.
    I agree with the President that the detention center at Guantanamo 
has become a damaging symbol to the world and that it must be closed. 
It is a rallying cry for terrorist recruitment and harmful to our 
national security, so closing it is important for our national 
security. The guiding principles for closing the center should be 
protecting our national security, respecting the Geneva Conventions and 
the rule of law, and respecting the existing institutions of justice in 
this country. I also believe we should revitalize efforts to transfer 
detainees to their countries of origin or other countries whenever that 
would be consistent with these principles. Closing this center and 
satisfying these principles will take time, and is the work of many 
departments and agencies.
                               conclusion
    Madam Chairman, Vice Chairman, and Members of the Committee: If 
confirmed, I will work closely with this Committee and with the 
Congress. The leadership of the Intelligence Community must earn and 
sustain the confidence and support of this Committee if it is to win 
the confidence and support of the American people. A close dialogue and 
relationship with the Congress is what our Constitution and laws 
require, and what is practical and necessary. Your wisdom, sustained 
interest, and sustained engagement enhance our Nation's intelligence 
capabilities.
    I look forward to your questions.

    Chairman Feinstein. Thank you very much. We will now 
proceed to activate the time clocks and go to five-minute 
rounds. My understanding is there is going to be a vote, 
probably within the half hour, and we will try to keep the 
hearing going. I will go vote immediately and you will preside, 
if you will, Mr. Vice Chairman, and then the reverse will take 
place.
    I'd like to just read the early bird list quickly. After 
myself and the Vice Chairman, it is Senators Coburn, Wyden, 
Levin, Rockefeller, Chambliss, Feingold, Risch, Whitehouse, 
Hatch, Bayh, Snowe. That will be the order.
    I'd like to say that, Senator Inouye, I know you have a 
busy day, with much coming up next week, so if you'd like to be 
excused--we'd love to have you here, but if you would like to 
be excused, that would be just fine.
    Senator Inouye. Thank you very much.
    Chairman Feinstein. Thank you very much.
    I'd like to announce that written questions and answers 
that the Admiral has responded to will appear on the web site 
of the Committee. So for those that would like to read the 
written questions and his answers to them, they are available.
    Admiral Blair, before we begin the individual questions, 
there are questions that we traditionally ask, and a yes or no 
answer will suffice. I'll go quickly.
    Do you agree to appear before the Committee here or in 
other venues, when invited?
    Admiral Blair. Yes.
    Chairman Feinstein. Do you agree to send officials from the 
Office of the Director of National Intelligence and elsewhere 
in the intelligence community to appear before the Committee 
and designated staff, when requested?
    Admiral Blair. Yes.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Admiral Blair. Yes.
    Chairman Feinstein. Will you ensure that the Office of the 
Director of National Intelligence and elsewhere in the 
intelligence community provide such material to the Committee, 
when requested?
    Admiral Blair. Yes.
    Chairman Feinstein. And a new question that I hope will 
become part of the tradition. Do you agree to inform and fully 
brief to the fullest extent possible all members of the 
Committee of intelligence activities and covert actions rather 
than only the Chairman and Vice Chairman?
    Admiral Blair. Yes.
    Chairman Feinstein. Thank you very much.
    I would like to take on something that's going to come up. 
Both Senator Rockefeller and I have read the Inspector 
General's report concerning--and I have talked with you 
informally, and I think we should put it on the record. When 
you were president of the Institute for Defense Analyses, you 
were involved in two reports on the F-22 program of the United 
States Air Force.
    On November 30, 2006, the IG for the Department of Defense 
concluded that a report found that Admiral Blair violated IDA's 
conflict of interest standards because he failed to disqualify 
himself from all matters related to IDA's work concerning the 
F-22 program. However, they also found that you did not in any 
way utilize any action. And, of course, you were on the board 
at the time of two corporations, EDO and Tyco Limited, and 
serving as a member of the board of directors.
    The IG found that your failure to disqualify yourself had 
no impact on IDA's consideration of the F-22.
    Now you provided responses in your prehearing questions on 
this matter, but please explain for the record and for the 
Committee why you did not recuse yourself, how you view that 
decision in retrospect, and how you would intend to handle 
potential future conflicts in the future.
    Admiral Blair. Madam Chairman, it was a mistake not to have 
recused myself from those two studies when I was president of 
IDA. I thought a great deal about the incident since, and the 
greatest damage was the damage to my own reputation for 
integrity caused by that decision and, of course, the 
reputation of the Institute for Defense Analyses that was done. 
I should have recused myself, and I didn't.
    As you pointed out, as the Inspector General report said, I 
did not in fact try to influence the study, nor did I do so.
    There were not good procedures for the president of IDA to 
review and recuse himself when appropriate. I instituted those 
procedures before I left.
    I think the lesson of it is that you can be absolutely sure 
that, if confirmed, I will not take any action that can 
remotely cause that kind of a situation to happen again. I will 
comply fully, in consultation with my counsel, with all 
regulations to ensure that any decisions that I make as DNI 
will be completely free of any suspicion that there is untoward 
influence.
    Chairman Feinstein. Thank you very much.
    Quickly, in response to the prehearing questions, you 
stressed the role of DNI as integrating the activities across 
the intelligence community and making the agencies work better 
together. Of course that's fine. But, as the Vice Chairman 
stated and I think virtually all of us agree, the DNI needs to 
be a very strong leader--someone who will take action to force 
agencies to achieve their missions, step in when things aren't 
going well, and really be an agent for change. In what ways are 
you prepared to go beyond integration and coordination to get 
the results that are necessary?
    Admiral Blair. I think the goal is quite clear, Madam 
Chairman. The intelligence community needs to be greater than 
the sum of its parts, not less than the sum of its parts. I 
think that a large part of what's required to do that is to get 
the rewards and the penalties lined up with the mission of the 
organization, all the way down the line from the very heads of 
the organization down to individual reports writers, analysts 
and other officers.
    And if we can build those structural procedures that 
incentivize people taking initiative, working across the 
agencies, and penalize those who retreat into their stovepipes 
and make behavior which may make sense from their small 
perspective but hurts the agency, we will go a long way to 
doing that.
    That can only take you to a certain extent, and there are 
times, as your question implies, that the Director of National 
Intelligence simply has to step in and say this is the way it's 
going to be because this is the right thing for the community.
    I'm extremely encouraged because of the team that is now in 
place among the different agencies. Not only has Mr. Panetta 
been nominated to be Director of the Central Intelligence 
Agency, a key job--and he's got the savvy and he's a pro and 
we've talked about these issues and we see them the same way. I 
think you will find that when you talk to him next week. We 
have General Alexander at the National Security Agency, General 
Ron Burgess going to the Defense Intelligence Agency, Admiral 
Bob Murrett running the National Geospatial-Intelligence 
Agency.
    I've worked with many of these officers in the past. They 
are team players. They understand that we all have to work 
together in order to do the nation's business.
    So I think the combination of this team attitude at the 
top, getting the incentives down through the structure, and 
then making the tough calls that benefit the nation, not to the 
benefit of an individual agency, are the keys to having the 
best intelligence for the President and everyone.
    Chairman Feinstein. Thank you, Admiral. My time is up.
    The Vice Chairman.
    Vice Chairman Bond. Thank you, Madam Chair.
    As the Chair and I have said, we want to work on a 
bipartisan basis, and I believe you made a commitment to work 
with both Republican and Democratic Members of this Committee 
and their staffs. I believe that's correct, is it not, sir?
    Admiral Blair. Yes, sir.
    Vice Chairman Bond. In addition, there's another matter 
that's very important to me and to the Chair and to Senator 
Mikulski. We're also members of the Senate Appropriations 
Defense Subcommittee. There have been occasions when we have 
been briefed on a matter but our intelligence committee is shut 
out.
    The excuse is always the same. It's a Title 10 issue, not a 
Title 50 issue. Now I understand there may be different 
operational requirements between defense and intelligence, but 
in areas where there is considerable overlap we need greater 
access to information on both sides of the fence. Our staff, 
with appropriate clearances and expertise in these matters, sit 
on this Committee, not on SAC/D.
    The Committee has almost 50 staff members with expertise in 
almost every area of intelligence. The SAC/D has very, very 
few, often consumed with other matters as they juggle a 
portfolio more than ten times the size of ours. Thus we have 
broader Committee staff.
    I recently delivered a message to one 4-star general. If we 
kept getting stonewalled by DOD in matters where we can be 
briefed but our staffs will not because of the Committee 
jurisdiction, then I personally will not vote for 
appropriations for the program. And I will share my views with 
the Chair and Senator Mikulski.
    If you're confirmed as the DNI, will you work with the 
Secretary of Defense to ensure that the intelligence committees 
are fully briefed on matters that pertain to this committee's 
oversight, to include areas that straddle Title 50 and Title 
10?
    Admiral Blair. Senator, I happen to have some familiarity 
with that issue, although it's somewhat dated. When I was 
Associate Director of Central Intelligence for Military 
Support, I stood on that seam between the armed forces and 
intelligence community, with the job of making that seam work 
for the country and not having issues fall between it so we 
were badly served in many areas.
    My experience from that time is I really think we need a 
Title 60. I think we need to get rid of this artificial 
division in this global campaign against terrorists, when the 
tools that are available in the Department of Defense and the 
intelligence agencies are both applicable and both need to be 
put together to get the job done. I find that operational 
effectiveness is in fact distorted by the way the authorities, 
which were written for different era, come down.
    So I think very much we need to fix that problem. But I 
think that in the meantime, given what we have, we should not 
use different titles as a shell game to try to keep information 
from the Congress, who has the oversight responsibility and the 
funding responsibility for these programs.
    And I can undertake to you that I will make sure that we 
don't use a different title to hide something, so that people 
who have knowledge and responsibility and oversight 
responsibility to carry out are not kept in the dark.
    Vice Chairman Bond. I sincerely thank you, heartily 
congratulate you, and I will explain to you in a different 
situation what we're talking about.
    You said that you believe that surveillance must only be 
done with lawful authorization. Do you believe that the 
President has the authority under Article II of the 
Constitution to conduct an authorized intelligence collection?
    Admiral Blair. That the President has the authority?
    Vice Chairman Bond. That the President has authority in 
Article II.
    Admiral Blair. Yes, sir.
    Vice Chairman Bond. So he can authorize collection. Here's 
the question. It's a basic question that has been resolved by 
the FISA court and others. There is disagreement on it, but I 
used to be a lawyer and I studied constitutional law. When the 
President has constitutional authority, Congress cannot 
eliminate it. And there are some people who think they can.
    I believe that it is an essential part of his ability to 
conduct foreign policy and we'd be happy to talk to you about 
it more.
    Madam Chair, my time has expired. I will pass to the next.
    Chairman Feinstein. Thank you very much. Senator Coburn, 
you are next. Senator Coburn is not here. Senator Wyden, you're 
next.
    Senator Wyden. Thank you, Madam Chairman.
    Admiral Blair, I very much enjoyed our meeting, and I want 
to get into a question you and I discussed in my office. 
There's this great debate about the role of the DNI and is it 
big enough and its authority. To me it's not whether it's a big 
office or a small office. It's whether there's an accountable 
office, because whenever there's a concern people come to the 
table and we have six people essentially looking at each other 
and you don't get a sense that there is adequate 
accountability.
    So I want to ask you this question and I'd like you to 
start with a yes or no answer before you get into the context. 
Do you believe that the position of Director of National 
Intelligence currently comes with the authority and the 
resources so that you can be held accountable?
    Admiral Blair. I think it's an incomplete authority, 
Senator Wyden.
    Senator Wyden. So I will interpret that as a ``no,'' 
because if you had sufficient authority you would say yes.
    Why, in your view, is it an incomplete authority, an 
insufficient authority to be held with respect to the Director 
being held accountable?
    Admiral Blair. Senator, it says right in the first 
paragraph of the Intelligence Reform and Terrorism Prevention 
Act that the Director of National Intelligence is the leader of 
the intelligence community. So when you're looking for one 
throat to choke, this is the one you should come to, and I 
accept that responsibility. I'm the leader, I'm responsible for 
what goes on there.
    But, as you know, the intelligence business is inherently 
enmeshed with many other departments of government--defense 
primarily, but also many others--and intelligence, of course, 
is a support function for policy; it is not a policymaker.
    So the reason I talk about the incomplete authority is 
because this new law that was established in 2004 is a work in 
progress. I'm only the third director. And as we work through 
unprecedented situations I think we will find areas in which we 
have to do some clarifying. But as a general principle I 
certainly accept responsibility for intelligence and I will 
act, if confirmed, in that manner.
    Senator Wyden. I appreciate you stepping up, but the point 
is the authority, in your view, you said it's incomplete. You 
said it needs to be clarified. And we're going to have to stay 
up with it until your position is one where you can be held 
accountable.
    The second area I need to talk to you about is human 
rights, where we also talked. This is obviously a critical 
component of our foreign policy, an essential element of 
America's claim to moral leadership. I think it's important 
that you clear up for the public record your response to the 
murder of thousands of innocent people in East Timor.
    These killings were committed by paramilitary groups 
supported by the Indonesian military. Some observers have 
alleged that our government turned a blind eye to the 
slaughter. You at that time were the head of the Pacific 
Command during the time of these murders.
    So right after August of 1999, when the people of East 
Timor declared their independence, there was a period of 
nonstop violence. Please describe for the record specifically 
your interactions with the Indonesian government during that 
period--that period right after independence--and what 
specifically you did to end the slaughter of what eventually 
became 200,000 people.
    Admiral Blair. Senator, I'm very happy to have a forum like 
this and a chance to talk about those allegations, because they 
came up after I left active duty in 2002.
    I want to say at the outset that those accusations, which 
I've read, are flat wrong. At the time that we're talking 
about, the objective of the United States government was to 
ensure that East Timor gained its freedom. That was the best 
thing that we could do for the human rights and the future of 
the East Timorese, and that was the focus of our policy.
    I and many other leaders of government carried out the 
American government's policy at that time in our conversations 
with leaders of Indonesia, both military and civilian. We 
decried and said that the torture and killing that was being 
conducted by paramilitary groups and some military groups in 
East Timor had to stop, and unless it stopped there would be 
heavier penalties paid by Indonesia, but if it did stop then 
the relationship between the United States and Indonesia could 
get better. That was my consistent message in several meetings 
and many phone calls with Indonesian leaders.
    All of those meetings and all of those phone calls were 
attended by our ambassador in the country. They were the 
subject of reporting cables, and they were consistent with the 
government policy. So those who say that I was somehow carrying 
out my own policy or saying things that were not in accordance 
with American policy are just flat wrong. And East Timor is now 
free and I think it was a successful policy and I'm proud of 
it.
    Senator Wyden. Madam Chair, my time has expired.
    Two points. First, I would like to see those cables that 
attest to the various communications you had. Then, Madam 
Chair, depending on how many rounds we have, Congresswoman 
Eshoo raises a very important issue. She is, of course, a 
senior member of the other body and I would like to talk with 
Admiral Blair about that.
    Chairman Feinstein. Thank you, Senator Wyden.
    Senator Levin, you're up next.
    Senator Levin. Thank you, Madam Chairman.
    Chairman Feinstein. And then if Senator Rockefeller can't 
get back from a vote in the Finance Committee, Senator 
Chambliss--and he's not here--Senator Feingold is next, Senator 
Risch is next, and Whitehouse after that.
    Senator Levin. Admiral, first I want to talk about 
statements that you've made about the necessity of speaking 
truth to power and telling the policymakers what your judgment 
or assessment is of the facts, even though they may not want to 
hear those facts. George Tenet wrote a book and acknowledged 
that in fact he had failed to tell the policymakers in the Bush 
Administration that what they were saying publicly was wrong. 
He acknowledged he had an obligation to do a better job--
quoting his book now--``of making sure that they knew where we 
differed and why I should have told the Vice President that his 
VFW speech had gone too far.''
    Are you committed to speak truth to power? Are you 
committed that when your factual assessments or intelligence 
assessments say one thing, if public officials say another 
thing and don't delineate between their own personal views and 
what the intelligence community has informed them that you will 
speak to them about that?
    Admiral Blair. Yes, sir, I think that's the only way to 
proceed.
    Senator Levin. You made a statement in your answers for the 
record about interrogation and the damage which has been done 
by excessive abusive or abusive interrogation, not excessive 
but abusive interrogation techniques, and the President is 
going to sign an order today, apparently today, which will 
prohibit the intelligence community from using and the CIA from 
using coercive interrogation methods, requiring the agency to 
follow the same rules used by the military in interrogating 
terrorism suspects. You're all going to be under the same 
rules--the intelligence community and the Defense Department, 
everybody, the FBI, everybody's under the same interrogation 
rules and the Army manual is going to be key to that.
    Do you agree with that decision of the President?
    Admiral Blair. Senator, the Executive Order which will be 
released here soon provides that there will be a review of the 
Army field manual as the basis for interrogation by the 
military and intelligence services. Interrogations done under 
the criminal prosecution responsibilities of the FBI are 
different and will not be affected.
    Senator Levin. Forget that reference. But in terms of the 
intelligence community and the DOD, you're going to be governed 
by the same rules. They will be uniform when it comes to 
interrogation of detainees. Is that correct?
    Admiral Blair. Yes sir, and it will not be called the Army 
field manual any more. It will be called the Manual for 
Government Interrogations. I think this review is very 
important and I'm very aware that Senator Bond, for example, 
made a strong point that I agree with, that the Army field 
manual should not become the training manual for resistance 
training for adversaries. So we need to be very careful about 
how we do this, but we need to get it right.
    Senator Levin. Do you believe they should be uniform?
    Admiral Blair. I believe they should be uniform.
    Senator Levin. Now let me talk to you about the use of 
aggressive techniques and the harm that that can do to our 
country. You made a reference in your statement and answers for 
the record about the necessity to close Guantanamo because it's 
a rallying cry for terrorists and harmful to our international 
reputation, so closing it is important for our national 
security.
    Do you believe that is also true, when it comes to 
interrogation methods on detainees, that how we deal with 
detainees, the methods that we use in interrogation are 
important methods, and that if we use abusive methods and our 
reputation internationally suffers that that has a negative 
impact on our national security?
    Admiral Blair. Yes, sir. The President said it so 
eloquently at his inauguration--``we reject the false choice 
between our safety and our ideals.'' I think we can do both.
    Senator Levin. My final question is that some people say 
that the use of aggressive, abusive techniques can save lives. 
Is it not also true, Admiral, that inhumane or abusive tactics 
can cost us lives in the following ways.
    Number one, some prisoners that are subjected to abusive 
treatment will simply tell us what they think we want to hear, 
whether true or not, in order to end the use of those abusive 
techniques against them, so that it can produce false 
information to use abusive techniques;
    Secondly, that abusing prisoners can also strengthen their 
resolve to resist and deceive because they expect us to torture 
them and we confirm their worst expectations, so with some 
prisoners, abusing them strengthens their resolve to resist;
    Thirdly, that mistreatment of prisoners in U.S. custody 
provides an excuse for other nations to abuse our captured 
servicemen and women;
    Fourth, that gaining a reputation as a nation that engages 
in abusive tactics weakens us strategically in terms of 
prestige and leadership, which works against our interests and 
costs us allies in common causes to work together in common 
causes;
    And that, finally, abusing detainees can deprive us of the 
ability to prosecute a terrorist or an alleged terrorist, as 
shown by Judge Crawford's conclusions in the al-Khatani case.
    Would you agree that, in other words, the use of abusive 
techniques can cost us and harm our security in those ways?
    Admiral Blair. I agree with points four and five based on 
what I know right now, Senator Levin--that it causes us great 
damage. One, two, three and six are what we have to look into 
in this review that's going on. But the dangers that you cited 
I'm sure have a validity and we need to look at the entire 
basis of them.
    Senator Levin. Will you get back to the Committee after 
you've had that review and answer those questions?
    Admiral Blair. Yes, sir.
    Chairman Feinstein. Thank you, Senator Levin.
    Senator Rockefeller is next. He is not here at this time 
because he's in Finance. Senator Chambliss is next. He is not 
here. Senator Feingold, Senator Risch.
    Senator Risch. Senator Risch will pass. Thank you, Madam 
Chair.
    Chairman Feinstein. Senator Whitehouse, I know you will not 
pass.
    Senator Whitehouse. Never been known to.
    Thank you, Madam Chair. I join my colleagues in 
congratulating you on becoming the Chairman of this Committee. 
In the time that we spent together--and I've been on the 
Committee now for two years--we've seen your intense devotion 
and dedication to this, and I think we're all very confident in 
your leadership, as we were in Senator Rockefeller's.
    A couple of quick questions, Admiral. First of all, both 
thank you and congratulations, and to your wife in particular 
thank you, because I think she's going to find she sees a lot 
less of you in the coming months and years than she's become 
accustomed to, though I think given your background she's 
probably gotten used to that. It's been done before.
    You talked earlier about conflict of interest. I would like 
to suggest to you that there may be areas within the 
intelligence community where the discrepancy in pay between 
contractors and career folks and the complexity of the 
underlying task may have created a situation in which the 
contractors know so much more about the program than the career 
officers that the tipping point has been reached where it's 
really now controlled by those contractors and to a significant 
degree could well be controlled by them for their own financial 
benefit rather than for real national security purposes.
    I think if we're going to solve that problem it requires a 
resurgence of the career infrastructure so that the weight of 
knowledge, the weight of authority, the weight of expectations 
remains in public hands and doesn't become part of President 
Eisenhower's military-industrial complex, with all the weight 
on the industrial side.
    Is that something you're willing to look into as you take 
these responsibilities?
    Admiral Blair. Absolutely, Senator Whitehouse. The 
Institute for Defense Analyses that I was President of was a 
federally funded research and development center, which is sort 
of part way from government official to the contractor, and I 
saw those sorts of conflicts that you recognize.
    The role of contractors, the disparity in pay that fuels 
that role, and the influence on policy, I will look at that 
closely within the intelligence community and assure that we 
have purely governmental functions being done by government 
employees and those things that are being done by contractors 
are those things that are appropriate from the point of view of 
economy and efficiency but not the point of view of policy.
    While we're on the subject, one of the controversial ones, 
of course, is interrogators. My strong preference is that 
interrogators in the intelligence world be a professional cadre 
of the best interrogators in the business for this function, 
and that our use of contractors be limited to times where maybe 
you need a particular dialect of a language that is not spoken 
or some unusual circumstance. But that's my strong preference. 
I don't know what the situation is now.
    Senator Whitehouse. I think you'll find strong support for 
that preference from this Committee.
    On the general subject of torture as well, the argument has 
been made over and over in public that the techniques that we 
have used have resulted in actionable information that saved 
American lives. My experience is that the efforts of this 
Committee to actually get a fact that proves that have been 
unavailing.
    We stop at the sort of conclusory level and you try to push 
behind it and it's been very hard to get. I think it's an 
important question to know, how also you feel about this issue, 
whether or not it truly was effective in any respect.
    Will you support our committee's efforts to drill down and 
actually find out whether those statements were true?
    Admiral Blair. I intend to make those efforts myself, and 
certainly when I understand it I'll be happy to try to convince 
you on the Committee that we have it right, because I, like 
you, have heard many anecdotes, I've heard stories, I've gotten 
phone calls from people who have been in the business. We're 
going to sort this out and look at it objectively and find out 
what the right answer is.
    But, as we talked before, that's not the only answer. There 
is the immediate tactical benefit. There is this larger 
question, which is going to be a matter of judgment, and that 
is what is America's reputation. And in my experience America's 
reputation is what has others doing the right thing when we're 
not watching; that's very important. It's been a great benefit 
to us over the years, that has a great value in and of itself.
    Senator Whitehouse. In that context, in my last few 
seconds, secrecy is a rare and special privilege in a 
democracy. It runs counter to the basic tenets of democracy, 
but it is necessary in certain circumstances. But I think we 
grant it to you, the American public grants it to you in trust, 
with the trust that it will be used only for national security 
purposes. My experience is that over and over and over again 
we've seen official secrecy used not for national security 
purposes but to mislead the public and to frame or more 
particularly mis-frame an outside political debate.
    Will you pledge to us that you will take this trust of 
secrecy that you were given as Director of National 
Intelligence and use it only to protect national security and 
not to manipulate public opinion or frame or mis-frame critical 
debates?
    Admiral Blair. Absolutely, Senator. I think spin is the 
basis of political campaigns. It's not something we should use 
our classification authority for, and the release of 
information should not be some that is politicized. It should 
be something to inform.
    Senator Whitehouse. Thank you, Chairman.
    Chairman Feinstein. Thank you, Senator. Senator Feingold, 
you're next.
    Senator Feingold. I thank the Chair and, of course, 
congratulate her as well. I'm looking forward to working with 
you, as I did with Chairman Rockefeller, and the new 
Administration.
    The Executive Orders on detention and interrogation are 
extraordinarily good news for both the rule of law and our 
national security. As President Obama put it so clearly on 
Tuesday, we reject as false the choice between our safety and 
our ideals. That simple statement, which we have been waiting 
to hear for eight long years is, in my view, the bedrock on 
which Congress can develop a new relationship with the 
executive branch.
    That relationship is going to include vigorous, independent 
oversight by this Committee of the intelligence community. But 
based on everything I've heard so far from the President and 
from you, Admiral Blair, from Congressman Panetta, I have every 
expectation that this relationship will be collaborative and 
grounded in mutual respect between our two coequal branches of 
government, with all of us working toward a common purpose.
    I ask the Chair to put a longer statement in the record, if 
there's no objection.
    Chairman Feinstein. Without objection.
    [The prepared statement of Senator Feingold follows:]
     Statement of Hon. Russ Feingold, a U.S. Senator From Wisconsin
    ``With the inauguration of President Obama this week, we--the new 
Administration and the Congress--have a long-overdue opportunity to 
strengthen an intelligence community that has been distracted and 
undermined by the lawlessness of the Bush Administration. As President 
Obama put it so clearly on Tuesday, `we reject as false the choice 
between our safety and our ideals.' That simple statement, which we 
have been waiting to hear for eight long years, is, in my view, the 
bedrock on which Congress can finally develop a new relationship with 
the executive branch. That relationship is going to include vigorous, 
independent oversight by this committee of the intelligence community. 
But, based on everything I have heard so far, from the President, from 
you, Admiral Blair, and from Congressman Panetta, I have every 
expectation that this relationship will be collaborative and grounded 
in mutual respect between our two co-equal branches of government, with 
all of us working toward a common purpose.
    ``Our consideration of Admiral Blair's nomination to be Director of 
National Intelligence is a key first step in establishing this 
relationship and in defining this common purpose. I hope and expect 
that Admiral Blair will state clearly that he and other officials of 
the Obama Administration will keep the full congressional intelligence 
committees fully and currently informed on all intelligence matters, a 
statutory requirement violated repeatedly by the Bush Administration. 
And I anticipate that he will provide assurances that no one--not the 
DNI and not the President--is above the law.
    ``I have two overriding concerns related to the position of DNI. 
First is the critical need to continue and broaden reform efforts by 
integrating the intelligence community with the rest of the United 
States government. This includes developing strategies for collecting 
and analyzing information needed to inform foreign policy decisions and 
defend the nation, whether collected clandestinely by the intelligence 
community, or overtly, particularly through State Department reporting. 
Legislation introduced by Senator Nagel and myself last year would 
establish an independent commission that would make recommendations as 
to how to develop these strategies. It passed the Intelligence 
Committee and I hope that the new Administration, as well as the new 
Congress, will support this important effort. In addition, I was long 
frustrated by the Bush Administration's repeated failure to develop 
interagency counterterrorism strategies, despite requirements in 
statute and repeated urgings in classified letters. It is my hope that 
the incoming national security team, including the DNI, will develop 
new interagency processes for developing these strategies, while 
working closely with Congress.
    ``Second, even as the Obama Administration tackles the critical and 
urgent issues of detention and interrogation, the intelligence 
community must take a fresh look at the surveillance authorities it 
currently holds. Many of these authorities are overbroad, lack 
sufficient checks and balances, and otherwise fail to protect the 
privacy and civil liberties of Americans. They include PATRIOT Act and 
FISA authorities, many of which were provided by Congress in response 
to Bush Administration scare tactics and political intimidation. In 
classified contexts as well as publicly, I have repeatedly indicated 
where I believe we can collect the intelligence we need while 
protecting our constitutional rights. I have identified many of these 
changes as part of a broader return to the rule of law that I have 
encouraged the Obama Administration to undertake, and I am looking 
forward to working with the President's team--at both the intelligence 
community and the Department of Justice--on these critical matters.''

    Senator Feingold. Admiral, in your responses to Committee 
questions you stated that ``where there is a dispute within the 
intelligence community in terms of whether proposed or ongoing 
activities are in compliance with applicable law, I believe the 
DNI should seek a legal opinion from the Office of Legal 
Counsel at the Department of Justice.''
    Given the individuals nominated to head the OLC, as well as 
Mr. Holder's testimony, this statement inspires confidence. 
Will you seek OLC opinions at the outset, given the 
controversies surrounding many of the Bush Administration 
intelligence programs, and will you work with me and other 
members of this Committee in identifying and resolving current 
and future legal concerns?
    Admiral Blair. Yes, sir.
    Senator Feingold. Admiral Blair, I know from our discussion 
how much you appreciate the need for fundamental reform of our 
interagency process. As we discussed, one gaping hole in this 
process is the lack of any strategies to integrate the 
intelligence community collection with all the overt ways in 
which our government gets national security information, 
particularly diplomatic reporting. Until we fill this hole and 
identify who is best suited across our government to obtain the 
information we need to inform our policies and protect the 
nation, I don't think we'll ever be able to use our resources 
wisely or effectively.
    That's why this Committee actually passed legislation by 
Senator Hagel and myself to create an independent commission to 
recommend ways to fix this longstanding systemic problem and 
why a broad range of former officials, including former 
national security advisors from both parties have endorsed this 
legislation.
    Admiral, would you support the establishment of an 
independent commission to recommend how the U.S. government as 
a whole can more effectively collect and analyze all the 
information it needs?
    Admiral Blair. Senator Feingold, as I said in our 
conversation, I completely agree with the premise of that 
legislation. I would prefer, if confirmed, to take a look at 
what the situation is inside before I sign up for one 
particular solution to that problem, but I pledge to talk with 
you about a way forward, and with the other members of the 
Committee, about taking on this very important problem.
    Because you're right. Often there are outside experts who 
know as much about a subject as do those who rely on classified 
information, and our obligation is to get the best 
intelligence, the best reports to policymakers and the 
executive branch, and those of you in the Congress, so you can 
make good policy.
    Right now I believe that we don't have a system that 
integrates those two sources very well.
    Senator Feingold. I look forward to hearing from you on 
this specific legislation and your general comments in the 
future.
    I know Senator Wyden already addressed this and I do want 
to bring this up. Although I'm a strong supporter of your 
nomination, I want to talk about this area of East Timor 
briefly. As you know, I've had longstanding and continuing 
concerns about human rights abuses and lack of accountability 
in Indonesia. We no doubt have substantive differences about 
U.S. policy, but I want to address at this hearing today the 
allegations and the press and the Washington Post that, 
initially at least, you worked around our ambassador in 
Indonesia in order to get to Jakarta for enagement with 
Indonesian military officers, notwithstanding the Army 
atrocities in East Timor.
    Are those allegations accurate?
    Admiral Blair. No, sir, they're not.
    Senator Feingold. It says in the press reports that the 
ambassador was with you at all the meetings, but the press 
account suggests that you went around him to get to Jakarta, 
and that notwithstanding his presence in the meetings that he 
was supportive neither of the trip nor the outreach to the 
Indonesian military.
    Is that accurate?
    Admiral Blair. No, sir, that's not accurate. I had my 
position on military relations with Indonesia as part of 
internal discussions--what kind, how much, what to shut off, 
what to continue with. I made recommendations within our 
interagency process on that.
    When it came to dealing with the Indonesians, I was a 
member of the government, carrying out government policy in 
what I said to the Indonesians. There were no wink-wink nod-
nods from me to Indonesian officers to go ahead and do what you 
want, I'm for you. That's absolutely flat wrong.
    I carried out the government policy in my relations with 
Indonesia. Within the policy debates of the United States I 
made my recommendations, and I then carried out the policy of 
the government as it was decided.
    So those allegations are wrong.
    Senator Feingold. Thank you for responding to that on the 
record. We all agree the United States should support human 
rights, but how we achieve that is a fundamental policy 
question, should not be dismissed, and I do appreciate your 
candid response.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you very much. Senator Chambliss, 
you've returned. You're next in line.
    Senator Chambliss. Thank you, Madam Chairman.
    Admiral Blair thanks for your willingness to continue to be 
a public servant. We appreciate it very much. And thanks to 
your family.
    As you know, Admiral, there's nobody in the Senate that's 
more familiar with the F-22 program and the studies around it. 
I'm very familiar with the IDA, and I am very familiar with 
that IDA report, your involvement in it. And in my opinion that 
should not be an issue, and, Madam Chairman, I think the record 
should correctly reflect that.
    Admiral, you stated a little earlier--I think I got this 
right--that one of the obligations of the DNI is to oversee the 
hunting down of extremist Muslims who seek to do us harm. I 
agree with you. That certainly is one of the main functions of 
our intelligence community.
    That conflicts somewhat, though, with the issue of Gitmo 
and the closing of that facility. We've got 245 of the meanest, 
nastiest killers in the world still at Gitmo. We know that 18 
that have been released previously have been either re-captured 
or killed on the battlefield. We suspect that there's another 
43 that have been released down there that have once again 
engaged in battle trying to kill and harm Americans.
    Now what we are proposing to do with the closing of 
Guantanamo Bay is to bring those 245 mean, nasty killers to 
U.S. soil or seek to transfer them to other countries.
    We've been trying to transfer them to other countries for 
seven years, in some cases, less than that in others, and 
frankly I don't see that happening. So I think we can expect 
that most of those prisoners down there are going to come into 
the U.S. system in some form.
    I can guarantee you that a certain percentage of those will 
ultimately be released on some sort of technicality that may be 
present in the judicial system. So what we're going to have is 
all of a sudden, in all likelihood, the release of some of 
those individuals into our society. We know they are mean, 
nasty killers, and if it's our job to hunt down those 
extremists who seek to do us harm, isn't that a conflict with 
the position which you have and the administration has relative 
to Guantanamo Bay?
    Admiral Blair. Senator Chambliss, in the last seven years 
or so I think we've wrestled with this exact question of 
whether we're talking about prosecuting crimes, whether we're 
talking about fighting a war. And, as you eloquently put it, I 
don't think we have found the correct way to treat this new 
type of campaign that we are engaged in.
    On the one hand, we have to fight it like a war and detain 
people and get information from them and protect our citizens. 
On the other hand, we have to maintain our stature as a country 
that's governed by its values and governed by ideals.
    We've gone back and forth in many different ways. These 
Executive Orders are going to give this Administration a chance 
to take a look at those tough issues and come up with creative 
solutions for them. The decision to close Guantanamo comes 
right along with a very hard look at what do we do with those 
245 people that are there. As you said, there aren't pretty 
choices for what we have to do with them. The choice of what we 
do in the future is the subject of another review for 
apprehension, detention and interrogation, the ideals.
    So we will take advantage of all the experience we've 
gained in the last several years. We'll be true to our ideals 
and to our safety, and will come up with a proposal of how to 
square these issues.
    But I'd be kidding you if I told you there was a magic 
solution there that nobody's found yet. We just have to figure 
out the best way we can and that's what these reviews are 
about.
    Senator Chambliss. Well, appreciate your honesty in that 
respect, because I think it's going to be extremely difficult 
to reconcile the two, of trying to treat these folks as normal 
prisoners when they're anything but normal prisoners.
    The other issue I want to mention to you is the issue that 
you and I talked about in my office relative to information 
sharing. Admiral McConnell made some very positive changes in 
that respect, and I think there's been a lot of headway made 
since September 11 on breaking down the stovepipes within the 
FBI, within the CIA, and our other intelligence agencies, and I 
appreciate your commitment to continue down that road of trying 
to make sure that we broaden the information sharing between 
our intelligence communities, and thank you for your commitment 
to doing that. We look forward to working with you in that 
respect.
    Thank you, Madam Chairman.
    Chairman Feinstein. Thank you. We just learned the 
President has just signed the executive orders, so those are 
now taking place.
    Senator Rockefeller has returned. Senator.
    Senator Rockefeller. Thank you, Madam Chairman. Admiral 
Blair, my sort of formal question is what are you going to do 
about the gang of eight. I think it's probably more or less 
impossible for you to answer that question at this point.
    Oversight committees like to get answers from people who 
are just on their first day and under their first minute of an 
Executive Order, all clear and clean. But in that oversight is 
the sort of sacred bond between the legislative branch and the 
administrative branch, executive branch of government.
    It's an important question. When is it that you have to in 
fact adhere, if that is the case at all, to a more select group 
of people simply because information is so explosive or so 
imminent or so timely that you adhere to a gang of eight, so to 
speak, gang of four, gang of 16, whatever it might be, or is it 
that you just make up your mind that this is a trustworthy 
group of people? We haven't had any leaks out of this Committee 
for a very, very long time. I think I know where most of them 
come from, but they don't come from the Congress or from the 
intelligence committees.
    What do you do about that?
    Admiral Blair. Senator Rockefeller, that's a very important 
question. I have some experience in my executive branch service 
of the whole business of classification and need to know and so 
on.
    I think the first thing to recognize is that I believe we 
are in a new era in the relationship between the two branches 
of government represented here, and that by all of the 
statements I have heard from the leadership and others and by 
what I know of, if confirmed, my colleagues on the national 
security team, we look on it as a team sport in which we're 
trying to win the same game.
    So I think that makes a difference right at the start of 
it. The second thing I've learned over time is people are more 
important than rules, that the development of trust, the 
development of informal communication mechanisms, such as the 
Chairman mentioned, so that we're not caught in some desperate 
last-minute phone calls to try to repair damage that wasn't 
thought of because we hadn't been meeting more frequently and 
earlier is much the exception and not the rule.
    The attitude that we don't use classification and sharing 
as a way to hide things, the recognition that there are 
legitimate reasons to hold things to small groups, but, on the 
other hand, the recognition that certainly when I was a senior 
commander and, as you said, I never pulled any triggers at that 
level. I didn't do my own staff work, we need to have processes 
which don't just check a block on telling somebody but actually 
get the information across to the right people in a way that 
protects secrecy.
    So all these things are at play in a tough new era of 
shifting threats and speed and new kinds of things that could 
be damaging to us. And all I can pledge to you, Senator, is 
let's turn this new page, let's work together, let's follow the 
law but let's go beyond the law and have those kinds of things 
that will develop that trust and support, and I think we can do 
the right thing for the country.
    Senator Rockefeller. Thank you for that. My time is about 
to run out, so I won't get into my cyber security question, but 
I'd like to.
    Chairman Feinstein. Thank you very much.
    A roll call vote began at 11:35. Senator Snowe is the next 
one up. You would like a second round? Well, then I think some 
of us should go and vote right now and then come back. Preside, 
if you will, and I'll recognize Senator Snowe.
    Senator Wyden. Madam Chair, would it be acceptable to go 
vote and still come back?
    Chairman Feinstein. Yes.
    Senator Snowe. Thank you, Madam Chair.
    Welcome, Admiral Blair. I appreciate your willingness to 
serve our country once again. You certainly have an impressive 
resume, and it certainly will serve this department is it 
undergoes a major transition since its inception. Certainly 
that's been one of the goals of this committee, is to ensure 
that the department is coordinated, integrated, and is 
functioning for the purposes it was originally designed and 
intended.
    One of the issues--and I know we discussed this during the 
course of our meeting--was on the issue of FBI transformation 
and transforming the FBI to a more counterterrorism posture. 
It's far from being institutionalized at this point.
    Over the years, since the department was created, for 
example, the 9/11 commissioners were before this Committee back 
in 2005 and indicated at the time that intelligence reform--and 
gave the FBI a C based on their recommendations. And then, of 
course, Governor Kean, who was a cochair of the commission, 
came before the Committee in 2006 and again stated that the FBI 
had moved too slowly to improve its ability to prevent future 
terrorist plots, was plagued by turnovers in its senior ranks, 
was not even close to where they said they would be.
    Then the Inspector General for the Department of Justice in 
2007 found that the professional divide between analysts and 
special agents remained a problem, and that barriers to 
acceptance and cooperation between the two groups must be 
addressed if the FBI is to efficiently and effectively meet its 
mission of preventing terrorist acts.
    So the bottom line is that we truly still experience some 
very difficult transitions within the FBI to transform to get 
more analysts, to provide the proper training, the number of 
analysts. Our Committee just in the recent intelligence 
authorization, which is still languishing regrettably in a 
House-Senate conference, said that the FBI has yet to make the 
dramatic leaps necessary to address the threats facing our 
nation and that, astonishingly, only a third of special agents 
and intelligence analysts even have access to the Internet at 
their desktops.
    I think that gives you an idea of the problem that still 
exists and persists within the FBI concerning the central point 
in terms of intelligence reform. I know you indicated that you 
pledge to work with the Attorney General, the Director of the 
FBI, and that the threat is too urgent for us not to intervene.
    Could you please outline for us, to the Committee how you 
intend to compel the FBI to undertake these reforms?
    Admiral Blair. Senator Snowe, this is a new area for me 
and, more importantly, I think it's a new area for all of us, 
in that after 9/11 this new responsibility or newly emphasized 
responsibility for the FBI came on.
    That series of reports you cited, clearly it's a work in 
progress that needs to be worked on. If confirmed, I will get 
into that area. I know that funding from the National 
Intelligence Program goes to the FBI for that purpose. That 
needs to be funded in the right way and spent in the right way. 
That's certainly my responsibility.
    I have known Director Mueller from the time that I was on 
active duty, and I look forward to working with him and the new 
Attorney General. At this point, Senator, I can simply agree 
with you on the importance of the transformation and pledge 
that I will look at it as a priority issue and, if confirmed, I 
will work hard to make sure it's working. And I will come back 
with you and talk about what needs to be done to make it 
everything it should be.
    Senator Snowe. I appreciate that. And one of the 
recommendations made in talking with the cochairs of the 9/11 
commission before this Committee was to establish some metrics 
and standards by which we can measure our performance but also 
in compliance with these recommendations, because it's 
certainly long overdue, and the resistance or whatever the case 
may be, I think that that culture has to truly change, because 
that is the central part of intelligence reform and making sure 
that we're on the cutting-edge of being able to fight any 
terrorist threats.
    I know we discussed this as well, an Inspector General for 
the entire intelligence community. That's been one of my goals 
and objectives, to pass an Inspector General for the entire 
community. I know, in reading the responses that you gave to 
the Committee with respect to that, that you indicated that a 
statutory Inspector General may add an unnecessary layer of 
bureaucracy on top of a system that is functioning adequately. 
But you have sort of a stovepipe approach for Inspector 
Generals. I don't think it's going to add a layer. The fact is, 
you want an Inspector General to be able to view the entire 
community and go across agencies for accountability, to 
identify problems, because that certainly has been a problem in 
the past, a failure to identify serious terrorist threats.
    We've seen too many instances of intelligence failure to 
adequately analyze information, failure to share information 
within the community. So those failures demand better 
accountability for the entire intelligence community. That's 
what would be important about an Inspector General, to be able 
to look across all the intelligence agencies.
    Admiral Blair. Senator Snowe, I certainly agree with the 
thrust of your question, which is that there are many issues 
that cut across agencies and the Inspector General system is a 
good system to attempt to improve many of them. I will look 
hard at that. I know you are personally interested in that 
issue, and I look forward to working with you on it, if 
confirmed.
    Senator Snowe. Thank you, Admiral. Thank you, Mr. Chairman.
    Vice Chairman Bond [presiding]. Thank you, Senator Snowe. 
If you will tell them that we are coming.
    Senator Nelson, have you had a round of questions?
    Senator Nelson. No, I'm waiting.
    Vice Chairman Bond. Well, you and I will go for it.
    Senator Nelson. I think we have about seven minutes left.
    Vice Chairman Bond. If Senator Snowe will tell them we're 
coming.
    Senator Nelson. Six or seven minutes.
    Admiral Blair, I just want you to know how much I 
appreciate your public service to our country; the same to your 
wife, who often does not get the recognition of the long and 
distinguished public service. I'm happy for you personally that 
this could be a capstone on a very lengthy and distinguished 
career.
    I'm going to submit some questions for the record, but the 
one thing that I want to say is that you are going to really 
have to exert control and crack the whip, and you're going to 
have to come to us with proposed legislation to strengthen your 
hand as the Director of National Intelligence, because when the 
legislation that created your office was set up, it was too 
watered down in allowing separation and stovepipes with some of 
the other intelligence agencies.
    The whole idea after 9/11 was to get this all where we 
could all coordinate it under an office that you're going to 
assume. In the meantime, what we've had is great cooperation 
from Secretary Gates, from the head of the CIA and the head of 
NSA and the other agencies--that's informally. Formally, we've 
got to create those lines of authority for you to be able to do 
it.
    So I can tell you I speak for our Committee that we want 
you to come forth suggesting legislation that would strengthen 
your hand, improve the efficiency, cooperation, and 
collaboration of all of the intelligence agencies. That way 
we're going to get a better intelligence product.
    Admiral Blair. Yes, sir. I can't imagine an incoming 
director could have a more reassuring set of words than those, 
Senator Nelson. I'll look at it and if I need it, I'll come 
back to you, sir.
    Senator Nelson. Thank you.
    Senator Wyden. Senator Bond, I think you're next.
    Vice Chairman Bond. Thank you for advising me. I'm going to 
run in a few minutes, Senator Wyden, and I will turn it over to 
you, whatever gavel I have left.
    Admiral, you visited Singapore a few years ago, discussing 
the arrest by Singapore authorities of individuals believed to 
be linked to terrorist groups and you stated, and I quote: 
``Singapore's actions and actions within the United States, we 
aggressively arrested terrorists and interrogated them 
ourselves and made a difference and I think we're all safer; 
our countries are going on the offensive now, not just waiting 
back behind a big wall or more standoff distances.''
    Do you still believe we need to be on the offensive, 
aggressively arresting and interrogating terror suspects?
    Admiral Blair. Absolutely, Senator.
    Vice Chairman Bond. Do you believe the CIA's interrogation 
and detention program has been effective?
    Admiral Blair. Mr. Vice Chairman, I'll have to look into 
that more closely before I can give you a good answer on that 
one.
    Vice Chairman Bond. The Executive Order has been issued 
about the Army field manual. You have stated that at least 
there may be an argument that if you have an Army field manual 
that is widely published and available to al-Qa'ida and other 
top terrorist leaders, it would not be effective. Is that your 
view or where do you stand on that?
    Admiral Blair. Mr. Vice Chairman, we talked about that in 
your office. I very much share your concern that we not turn 
our manual into a training manual for our adversaries. And I 
will play my part in that as the Vice Chair of that review, 
with that issue very much in mind.
    Vice Chairman Bond. President Obama has issued an Executive 
Order applying the field manual. But, as I understand the 
situation, he has an Executive Order--the authority to issue an 
Executive Order describing techniques, classified techniques, 
that could be used by the Agency that would be different from 
that used by the Army. Is that your understanding?
    Admiral Blair. My understanding is we want to revise the 
Army field manual and make it the manual that goes for both 
military and intelligence interrogation and to have the 
guidance so that it's uniform across those agencies, depending, 
of course. There are many different things in the manual.
    Vice Chairman Bond. If the agency is the only one using it, 
if you disseminated that manual to some 20,000 military 
personnel who would not be conducting, necessarily conducting, 
those interrogations and for whom the Army questioners do not 
need it, why would you describe methods that should not become 
public to a broad group of people for whom the Army field 
manual is appropriate?
    Admiral Blair. Senator, we face this dilemma all the time 
in military doctrine. We have large amounts of unclassified 
doctrine for our troops to use, but we don't put anything in 
there that our enemies can use against us. And we'll figure it 
out for this manual, which will be the manual for everyone to 
use.
    Vice Chairman Bond. Will it be available to members of the 
Army--would it be limited, would access to that information be 
limited to those in the agency who are directly involved or 
might be directly involved in interrogations?
    Admiral Blair. It will be limited to those who need it, 
both within the armed forces and within the intelligence 
service.
    Vice Chairman Bond. We've discussed the FISA Act 
amendments. Do you believe that private partners who assisted 
the government should have the civil liability protection that 
they have been accorded as a result of our Act and the 
determination by the Attorney General?
    Admiral Blair. Senator, I'm going back in my mind to your 
previous question. I hope I don't meet you in a court of law 
some day, because I think I'd lose. When I said this manual 
would be available to those need it, there will be some sort of 
document that's widely available in an unclassified form, but 
the specific techniques that can provide training value to 
adversaries, we will handle much more carefully.
    I was just thinking about that answer.
    Vice Chairman Bond. That essentially is what the current 
Administration has done.
    Admiral Blair. We have to look at this, Senator.
    Vice Chairman Bond. I don't ask you to comment on that. The 
PATRIOT Act has three provisions that are expiring--roving 
wiretaps, the authority to target lone wolf agents, and the 215 
business records. Have you had a chance to review that and take 
a position on renewing the PATRIOT Act, those three provisions?
    Admiral Blair. Mr. Vice Chairman, I understand that those 
provisions that you have described came into force fairly 
recently. I'm sure everybody on this Committee is more familiar 
with them than I am. I know that there are reports that I will 
be responsible, if confirmed, for submitting. We will be 
gathering data as we go. There have been some Inspector General 
reports. I'd like a chance to digest all of that before I give 
you a definitive answer on it, sir.
    Vice Chairman Bond. I spoke about DNI authorities. What 
would you describe is the appropriate role of the DNI? How 
would you like to see the DNI function?
    Admiral Blair. I think that the concepts of leading and 
managing are the core concepts there, and this has to be, as I 
said in an earlier answer, more than just signing a piece of 
paper and putting out a glossy brochure. It has to be working 
on the incentives down through the organization so that those 
who do their job are rewarded and those who don't do their job 
are moved out, as you described.
    So it's a complex management challenge.
    Vice Chairman Bond. You just answered my second question on 
accountability. You also, I think, in a previous answer 
indicated you had some sense of the incomplete authorities of 
the DNI. We will discuss those later, but I think you will find 
that they are very important.
    A final question. How important do you think it is to 
prosecute leakers of classified information?
    Admiral Blair. You know, Senator, I've been bothered 
throughout my career, as you have, by leakers. If I could ever 
catch one of those, it would be very good to prosecute them. So 
I believe that we need to make sure that people who leak are 
held to account for it.
    Vice Chairman Bond. Thank you very much, Admiral.
    I'm going to turn this over to the distinguished Senator 
from Oregon and try to make the floor vote. I will ask 
unanimous consent and hereby grant it to put my additional 
questions in the record.
    I thank you for your testimony.
    Senator Wyden [presiding]. I thank the Vice Chairman. 
Before the Vice Chair leaves, one of the many reasons I'm going 
to miss you is I've enjoyed working with you, and the two of us 
have been leaders of the bipartisan effort to increase the 
penalties against those who leak in the kinds of situations 
that the Vice Chairman has mentioned.
    Let me start, Admiral, with this question. For years the 
warrantless wiretapping program and the coercive interrogation 
program was withheld from most members of this Committee. Was 
that justifiable, in your view?
    Admiral Blair. Senator, it is difficult to cast ourselves 
back to those days right after 9/11 and the feeling that was in 
the land at that time. As I said in my statement, I think that 
the actions that are taken by the intelligence community in 
gathering intelligence on Americans need to have a lawful 
basis, need to have procedures that are tight, and need to be 
reviewed. I can tell you that going forward they will meet all 
those criteria.
    Senator Wyden. With respect to my question, most of the 
members of this Committee had that information concealed from 
us for years. I'm not talking about a short period of time. Was 
it justifiable to conceal from most members of this Committee 
that information for years?
    Admiral Blair. Senator, going forward, I will not conceal 
information that you ought to have from you for years.
    Senator Wyden. Why are you not willing to respond in a yes 
or no fashion to this question, because past is always 
prologue. I share your view with respect to something that 
might have been short-term.
    Admiral Blair. My only reason for hesitation is I don't 
have direct knowledge of it, and I'm just hesitant to give you 
a categorical answer without having known more about it.
    Senator Wyden. This member of the Committee is saying that 
for myself and most members of the Committee it was concealed.
    Admiral Blair. The situation as you describe it, Senator, 
is wrong.
    Senator Wyden. Thank you. I appreciate your reaching that 
judgment.
    Admiral, two other areas. If the Government Accountability 
Office is conducting a study at the direction of one of the 
intelligence committees using properly cleared staff, will you 
give them access to do their work?
    Admiral Blair. I'm sorry, would you repeat the question, 
Senator?
    Senator Wyden. If the GAO is conducting a study at the 
direction of one of the intelligence committees, using properly 
cleared staff, will you give them the access they need to do 
their work?
    Admiral Blair. Senator, I'm aware that the direction of GAO 
studies and terms of them are generally subject to talk between 
the two branches of government for a variety of reasons, and, 
subject to having those discussions, I ultimately believe the 
GAO has a job to do, and I will help them do that job.
    Senator Wyden. I would appreciate it, and I would also 
appreciate you following that up with Chairwoman Eshoo. This is 
something she's brought to my attention, and I think her point 
is very valid.
    Admiral Blair. It sounds like there's a story behind this, 
Senator, and if we can talk about that story I think we can fix 
it.
    Senator Wyden. Fair enough.
    The third area I wanted to talk about that we talked about 
in the office is the overclassification of government 
documents. This has been done by executive branches that were 
dominated by Presidents of both political parties. Governor 
Kean put it pretty well when he talked about his work on the 
commission, where he said well over half of the documents he 
saw that were classified didn't need to be classified.
    I expect that you and I will be doing a lot of work 
together with respect to situations, but what is your general 
view with respect to whether overclassification is a serious 
problem, and what would be your thoughts, just for purposes of 
this very short discussion, in terms of dealing with it?
    Admiral Blair. As we discussed in your office, my 
experience has been the same as that which you relate, that 
there is a great deal of overclassification. Some of it I think 
is done for the wrong reasons, to try to hide things from the 
light of day. Some of it is because in our system there is no 
incentive not to do that, and there are plenty of penalties to 
do the reverse, in case you get something wrong and don't 
classify it. So I think we need to do fundamental work on the 
system.
    But I think, in the case of intelligence in particular, we 
need to sort of demystify a lot of the work that's done in the 
intelligence business, which is very smart people looking at a 
lot of information and trying to reach judgments. Many times 
our adversaries know more about it than our citizens do, which 
is not the way it ought to be. So I basically agree with the 
general thrust of your remarks, Senator Wyden. I'll be working 
to see if we can come up with a different approach that 
incentivizes it at the right level and informs not only those 
of you with security clearances on this Committee but the wider 
interests of the public whose support we need.
    Senator Wyden. Admiral, my time is up. I just want to state 
this morning I intend to support your nomination. I think 
you've been candid this morning and I appreciate it and look 
forward to working with you.
    Admiral Blair. I look forward to working with you, if 
confirmed, sir.
    Chairman Feinstein. Thank you, Senator Wyden.
    Admiral, my intention is to go for another half-hour. If 
all the Senators have their questions answered by then, we will 
adjourn the hearing. I'm sure that won't be a painful decision 
for you. But I'd like to ask a couple more questions. I know 
Senator Whitehouse has a couple more and there may be other 
returning Members, so we'll see how it goes, if that's all 
right.
    I wanted to ask you some questions, as others have 
indicated, on holding people accountable for decisions made. I 
want to know how you would hold people accountable and handle 
disciplinary measures for officials in the community that were 
involved at the top levels for interrogation and detention.
    I'd like to ask you if you have also reviewed the recent 
report of the CIA IG involving the Peru shootdown. The 
unclassified statement that I could make is that the shootdown 
confirmed what our Committee found, that the program was not 
managed as the President authorized, and the IG report found 
that CIA officials withheld information from Congress and 
Executive branch officials.
    Admiral Blair. Madam Chairman, the issue of accountability 
I believe goes hand-in-hand with responsibility, and you need 
to assign things clearly and then give medals and promotions 
and rewards to people who carry them out legally and do their 
jobs well, and then you need to hold to account those who fail 
to follow the directions or who do it badly.
    There's a difference between those two. So I think you have 
to look at what the mission was at the time, what the direction 
and parameters were at the time, and you make a call as to 
whether the person deserves the reward or deserves the 
punishment or should be moved out of the job.
    So I'm pretty traditional on these things. I intend to 
establish procedures and move forward. But there are some 
things in the past that have to be looked at. Inspector General 
reports like the one you mentioned, which I have not had a 
chance to read yet, need to be looked at, and both reward and 
punishment meted out accordingly.
    So I think this is absolutely key to making an effective 
organization, giving people at lower levels confidence that 
they will move up if they do well, that they'd better watch out 
if they don't do well. So I agree with that concept.
    Chairman Feinstein. I'll discuss this with you further in 
another setting, if I may.
    When we met last week we discussed the community's enormous 
overuse of contractors and the use of contractors for what are 
inherently, I believe, governmental functions. The 2007 DNI 
contractor study found that contractors are now 27% of all 
intelligence community personnel. They perform missions, 
including interrogation of CIA detainees, which I think is 
completely inappropriate and should be done by government 
employees, and contractor personnel cost $80,000 more than a 
government employee.
    When we spoke you said this was a matter of concern and 
that you intend to look into the contractor issue. I'd like you 
to tell us how you intend to proceed and when you will have 
some answers, because candidly I find this unacceptable. I find 
hiring contractors to interrogate detainees and hiring 
contractor psychologists to evaluate is just the wrong thing 
for the government to do.
    Admiral Blair. You showed me some summary charts from that 
report from 2007, Madam Chairman, and I agree with you that 
it's a serious problem. I think we have to look behind the 
numbers at the motives--a big ramping up in responsibilities, 
money available but not trained people available. I know that 
in many branches of government the answer was hire a 
contractor, in many cases a retired officer from that 
organization who basically had some experience. But you can't 
do that for a long time. You have to get it right. You have to 
keep the governmental functions by people who get their 
paycheck every two weeks and work for the government.
    I will get into that issue. I agree completely that we 
should have a cadre of trained government interrogators as we 
move forward, and I will look at that as soon as I get in and 
work in that direction. I'm not sure about the speed. I'm not 
sure what the situation is right now, but I look forward, if 
confirmed, to consulting with you on that.
    Chairman Feinstein. Thank you.
    Senator Whitehouse, I think you're next and then--Senator 
Rockefeller, do you want to go next?
    Senator Rockefeller. Thank you, Madam Chair. I just have 
one question, Admiral, and that is what I left off with about 
cyber security.
    What was it, a year ago, Sheldon, that Mike McConnell took 
us out to an undisclosed location in Virginia, and really the 
whole point of it was all about cyber security. He views it as 
the premier national security problem.
    There was a sense of urgency in that meeting. The problem 
with things like that is you get the urgency and people collect 
and then people disperse, and then you have all the various 
jurisdictions. So we have a cyber initiative. Senator 
Whitehouse has an enormous interest and capacity, a hunger to 
be helpful in this area.
    So we have the initiative which focuses on securing the 
federal government, the Executive branch and Legislative branch 
information networks. And that's a good start. That's a good 
start.
    But my main worry is the security of our country's critical 
infrastructure--our electric power grid. People like to call it 
smart. It just needs to get big. You can hope that it's smart 
but if it gets big that's going to solve 80 percent of the 
problems--our communication system, our banks, et cetera, et 
cetera, et cetera. And I don't think there's probably anybody 
in this Congress that hasn't been hacked into by this.
    Therefore, because it's wrapped up in this thing called the 
Internet, free travel across the spaces and the atmosphere, 
there's an innocence to it, except that it's utterly un-
innocent when somebody intends it to be that way.
    So what I would just like to get from you is what we need 
to do about that, what do we need to extend in terms of the 
cyber initiative, and how you personally see it.
    Admiral Blair. I have some familiarity with the issues of 
cyber security, Senator Rockefeller, but there's a lot that I'm 
dated on or that I don't know. But I certainly share your 
feeling of the priority of securing our networks.
    As you point out in your question, we have to protect our 
networks within the government, but from society's point of 
view it's these networks, on which increasingly the basic 
functions of society and country depend, that we have to be 
extremely concerned about.
    I think the intelligence community, within the team of 
government and private organizations that have to work on it, 
has the responsibility for working on the threat. It should be 
the intelligence community, the National Security Agency has it 
squarely in their charter, that understands the sort of 
techniques and the thinking of those who are trying to, both 
maliciously and with true threat intent, get into our systems 
and cause them harm.
    There's a lot of expertise there in the National Security 
Agency and elsewhere about how we protect systems, and we need 
to share that judiciously with the private sector so that we 
have the best techniques to work with them.
    And then, in the area of recovery which goes along with all 
of this, I think the government and the intelligence agencies 
within it has an extremely important role in attribution so 
that you know how to recover and how to recover well.
    So I think throughout this campaign there's not one answer 
for it either; it's a crew race. One side pulls on the stroke 
and the offense pulls ahead and then the defense pulls ahead. 
We've got to keep stroking faster, better, with more teamwork, 
and that's going to be something that certainly I think the 
entire time that I, if confirmed, am in this job will be a very 
high priority.
    Senator Rockefeller. I think the point you make about 
trying to keep up with the other side, usually in terms of 
China and others, I think it puts us at a disadvantage in this 
country. In other words, if you're trying to catch up with and 
develop a stronger firewall which another country or who knows 
where it comes from then breaks that down, then you have to 
come back and come up with an even higher firewall of some 
sort.
    It's a game which is deadly and which has a very hard time 
attracting public interest. When it will attract public 
interest is if they close down the electric grid system, but in 
the meantime we don't want that to happen so it's going to have 
to be done by the government, working with the private sector, 
and with an intensity which belies sort of the placid view of 
the Internet's a good thing and people can talk all across the 
world.
    Let me just end by saying I really enjoyed the process of 
working with you and I look forward very much to your 
stewardship of this. We had a discussion once that you spent 
your life sort of giving commands and in the military four-star 
it's chain of command, and you were in our conversation very, 
very sincere in understanding the dimensions of this problem 
and the need to share with the Legislative branch, although 
that sometimes can be very painful--hours in hearings, and you 
say why did I ever get myself into this.
    But it is a team effort. We are Team America and we are 
under attack, and we have to go at it with that kind of 
cooperative point of view. And I think you're precisely the guy 
to do it, and I think also that you will be very strong in your 
views and help move the IC community effectively.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you, Senator Rockefeller.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Admiral, just a moment ago, in response to a question from 
Senator Bond, you indicated that there will be a public 
document on interrogations, but specifics of interrogation 
techniques may be held back. That's more or less the design of 
the Army field manual approach now--19 techniques, but the 
precise manner of their implementation is not disclosed.
    Is that what you intended to mean by your response?
    Admiral Blair. Thank you for giving me a chance to talk 
about that again, Senator Whitehouse. I don't know.
    Senator Whitehouse. You weren't talking about using 
techniques outside the Army field manual.
    Admiral Blair. What I was thinking--the general pattern 
that I had in mind is that information widely available is more 
general than that which is specifically used, which is of value 
to potential adversaries. That is, we use this in many other 
techniques in which we have to assure the American people that 
we are acting correctly, but nonetheless we don't want to 
provide open intelligence support to those who are trying to 
come after us.
    So striking that balance, the one way I'm familiar with, is 
the more general public documents and then, as the level of 
specificity increases, more limited in the distribution, more 
careful in the classification. So I'm certainly going in 
thinking in those terms but I don't know if that's the right 
answer.
    Senator Whitehouse. But not outside of the bounds of the 
unclassified array you begin with.
    Admiral Blair. No, sir. The idea is not: here's this public 
document--just kidding, here's the real stuff. That's not what 
I'm saying.
    Senator Whitehouse. That's what I needed to hear. Thank 
you.
    We have, during my brief tenure on this Committee, over and 
over again seen alarming, appalling leaks of classified 
information and over and over over again, every single time, as 
best I can tell, those are leaks outside of the legislative 
branch, out of the intelligence community, not from Congress, 
not from this Committee, and it happens over and over and over 
again.
    Apparently the record of getting these turned over for 
investigation and prosecution has been zero. I'm not sure. It's 
probably classified what the number was that we were given 
yesterday as to how many had been turned over. It was a large 
number, out of which zero cases resulted.
    Which suggests to me that there is a significant lack of 
energy and interest within the intelligence community in truly 
policing this stuff and that the device for kind of getting rid 
of it or fobbing it off is to say well, we'll send it over to 
the Department of Justice and if they can't prosecute it as a 
criminal offense, well, we're not going to take any further 
interest, when you have all sorts of personnel, administrative, 
supervisory and other authorities to deal with this as well.
    Now you can send as good a message by firing somebody as 
you can by marching them out in handcuffs in many situations.
    So I hope we can work with you on this later, but I hope 
that you will consider this business of leakage to be a 
significant and serious one and that you will be willing to use 
your administrative authorities and demand that those agencies 
reporting to you use their administrative authorities and not 
just pass the buck to DOJ and when they find out that it's for 
some reason not a criminal offense that they care to prosecute, 
and kind of feel they can kind of wash their hands of the 
problem. It's a serious problem and very serious national 
security information has been released because of it.
    Admiral Blair. I completely agree, Senator Whitehouse. If 
confirmed, I'd like to come and talk to you about some ideas 
where we can build in some technical and some procedural 
safeguards into agencies so that it's not a case of going back 
afterwards and trying to get records and question people but we 
have some tools that will let everybody who works for the 
government know that if you are going to pass classified 
information to a reporter or to someone there will be a trace 
of it which will make it relatively quick to identify you as 
the one who did it, so you shouldn't ought to think about it.
    So I would look forward to talking with you. Now, as I say 
that, we of course have been discussing aggressive techniques 
which have stepped over the line in the past, but I think we 
can work out something that will get people away from it. I've 
been bedeviled for years by reading things in the paper that I 
thought were very private and classified accounts of meetings 
that I participated in, and it just helps our enemies and 
messes up good government and we'd better find a way to get on 
top of it.
    Senator Whitehouse. I appreciate that.
    Madam Chair, may I ask one more question? Senator Levin has 
given me permission to do that.
    Chairman Feinstein. Yes, certainly.
    Senator Whitehouse. The focus of this hearing has to a 
degree been on the mistakes and the mishaps and misdirection of 
the past. It has left, I think, potentially, a flavor that 
these are troubled agencies. I just want to say I was in 
Afghanistan recently up at a forward operating base in a former 
Soviet prison with no windows in the shadow of the border--no 
lights at night because it would attract rocket and mortar 
fire, pretty severe conditions of privation. And folks who will 
be working for you were operating there at a level of morale 
and enthusiasm and professionalism and tempo and expertise that 
just took my breath away. It is really, really impressive what 
is going on out there.
    I think there were probably some very goodhearted and 
professional people swept up in some of these mistakes, and 
particularly those who were involved and the interrogation 
procedures, detentions and so forth. It strikes me that one 
thing they are entitled to from their country, as they did what 
they believed was approved and legitimate and what they were 
told to do and what they thought would help the country, is to 
have accurate legal advice now about what their real 
predicament is.
    I hope that you will consider working with your colleagues 
at the Department of Justice to try to get them a fair and 
proper legal status report of what their situation is so they 
can understand what potential vulnerabilities they may have 
taken on, particularly at the individual agent level, in 
perfectly good faith without having any legal degree or 
anything that might suggest to them that somehow something had 
gone wrong up at the White House, in the Office of Legal 
Counsel and all these places to pollute the information that 
they were given.
    Now they may be stuck with it. They may be people who 
should be careful about where they travel and so forth. So I 
would urge you to consider that. I think it's important. I 
think it's part of what we can do for them to try to make this 
right and, as I said, there are some extraordinarily wonderful 
people who will be working for you.
    Thank you, Chairman.
    Chairman Feinstein. Thank you very much, Senator. Senator 
Levin.
    Senator Levin. Thank you very much.
    Chairman Feinstein. Oh, if I could ask staff, there are 
certain members that have not had an opportunity to speak. You 
know who they are. If you could tell them that now would be the 
time, because the intention is to adjourn when we finish this 
round. Thank you.
    Senator Levin. Thank you, Madam Chairman.
    Admiral, the National Counterterrorism Center, the NCTC, 
was created by the Intelligence Reform Act of '04. It was given 
two broad missions and I think you've already identified 
basically those missions. After four years of existence, does 
the NCTC function at the level that Congress and the President 
intended? You just participated in a review of their activities 
and the intelligence community in general. So on a scale of, 
say, one to ten, how would you rate NCTC in terms of access to 
intelligence, the quality of its analysis, and its ability to 
control what gets collected?
    Admiral Blair. I'll need some more time to give you an 
exact answer, Senator Levin, but I happen to know retired 
Admiral Scott Redd, who was the director there for a while. 
He's a friend and I had a chance to talk to him about it. I've 
talked with people who have worked with NCTC, and my impression 
is that that place is good and getting better all the time but 
I don't think it's perfect.
    I think we're on a good slope there and we need more, 
faster, better.
    Senator Levin. Going back to the question that a number of 
us have asked about, which is the treatment of detainees, there 
is a new Executive Order which has now been signed. In your 
judgment, is waterboarding torture?
    Admiral Blair. I think in answering that question, Senator 
Levin, I would say that there will be no waterboarding on my 
watch. There will be no torture my watch.
    Senator Levin. Let me ask the question again. From what you 
know of waterboarding, is it torture?
    Admiral Blair. In answering that question, Senator, I'm 
very much aware that there were dedicated officers in the 
intelligence service who thought they were carrying out 
activities which had been authorized at the highest levels and 
properly authorized. They had doubts about them originally, so 
they asked and asked again. Then they were given direction and 
then they took action.
    I don't intend to reopen those cases of those officers who 
acted within their duties. So I'm hesitating to set a standard 
here which will put in jeopardy some of the dedicated 
intelligence officers who checked to see that what they were 
doing was legal and then did what they were told to do.
    Senator Levin. The problem with that answer is that the 
Attorney General nominee has given us his judgment, and your 
reluctance to give your own judgment on that question, it seems 
to me, is troubling to me, because I don't think there's the 
slightest doubt about it, regardless of what the former Vice 
President said.
    So I'm looking for your judgment on that question from what 
you know of waterboarding. In your judgment, is it torture? If 
the Attorney General designee can answer that, it seems to me 
you ought to be able to give us an answer as well.
    Admiral Blair. Senator, you'll just have to make the 
inference from my answer that on my watch we will not 
waterboard.
    Senator Levin. We had a senior intelligence officer in 
front of us, Colonel Steve Kleinman, in front of the Armed 
Services Committee--I believe it may have been a hearing of 
this Committee--and this is what he said, and this has to do 
with the use of abusive tactics.
    He says, ``I was privileged to join 14 of America's most 
accomplished intelligence and law enforcement professionals in 
an intensive discussion of best practices in interrogation. 
Representing the Central Intelligence Agency, the Department of 
Defense and the Federal Bureau of Investigation, we 
collectively represented 350 years of operational experience in 
conducting thousands of interrogations and debriefings. Our 
respective professional experiences led us to a single emphatic 
conclusion. The most effective method for consistently 
eliciting accurate and comprehensive information from even the 
most defiant individuals, to include terrorists and insurgents, 
was through a patient, systematic, and culturally enlightened 
effort to build an operationally useful relationship.''
    Do you agree with that?
    Admiral Blair. Based on everything I know, I agree with 
that, yes, sir.
    Senator Levin. Thank you. My time is up. Thank you, Madam 
Chairman.
    Chairman Feinstein. Thank you very much, Senator Levin.
    Senator Hatch, you are up.
    Senator Hatch. Thank you, Madam Chairman. I just want to 
congratulate you on your ascension to the chairmanship of this 
really, really important committee. We've worked together on a 
lot of things. I have a lot of respect for you and I appreciate 
the way you've started this Committee and started your tenure 
here. It personally means a lot to me.
    Admiral Blair, I want to welcome you. You've given long and 
distinguished service to this country and I have nothing but 
respect for you.
    We've had rather extensive conversation in my office and I 
personally appreciated the forthrightness with which you 
approach this job and really approach everything. You're the 
kind of guy that I think makes a difference in this world and 
who can certainly make a difference in this job. It's one of 
the most important jobs in this country today.
    I also want to pay tribute to Mike McConnell. When he came 
in, it was overwhelming, and you'll find it to be so as well. 
But a lot of the overwhelming part he's helped to put together 
and resolved. He's helped to resolve these approaches, but 
there are still plenty of problems and you'll find that that's 
so when you get there.
    I suspect you're likely to spend an awful lot of time 
before this Committee, and I certainly expect you to be 
confirmed. I wish you success in the role as the nation's third 
Director of National Intelligence.
    If I could just ask a couple of questions, Admiral Blair, I 
believe the July 2004 report by this Committee cataloging and 
analyzing the Iraq WMD intelligence failure prior to 2002 was 
the most comprehensive report done on this subject. It might be 
the most important report ever done in the history of this 
Committee.
    Have you had a chance to read it?
    Admiral Blair. I've read the summary of it, Senator Hatch, 
and I agree it's an extremely thorough document.
    Senator Hatch. What do you believe explains the failure of 
the Intelligence Community in assessing the presence of weapons 
of mass destruction in Iraq in 2002?
    Admiral Blair. I've had a chance to talk to some of the 
officers who were involved in that in fairly senior positions, 
and, as I would describe it, I think there were a bunch of 
tumblers on that lock that all fell into place to produce that 
very wrong result. Some of them had to do with the lack of 
sources and sheer lack of penetration. Others had to do with 
attitudes of analysis which were flawed.
    Part of it had to do also with the extraordinary political 
pressure that was placed on some of the analysts. So I think 
there were a bunch of things that contributed to it, Senator 
Hatch.
    But what I think is really important is that when that 
happened, it was so clear it was wrong, the intelligence 
community actually took a standdown, stopped, stopped work, 
every analyst, half a day on how did this happen, and then went 
through a process of really critical self-examination and put 
in place a series of corrective measures to make sure it 
wouldn't happen again.
    Senator Hatch. Well, they weren't alone when they did this, 
because almost every major intelligence department of all the 
major countries felt exactly the same way.
    Admiral Blair. It doesn't excuse it.
    Senator Hatch. By the way, just to correct you, the report 
expressly said that there was no political pressure involved, 
so you might want to read it from that standpoint as well.
    Admiral Blair. I'm sort of thinking small ``p'' political--
the intense overwatch, the high stakes.
    Senator Hatch. Even there, they denied that there was any 
of that--at least that's my recollection of it, and I think I'm 
accurate on that.
    I also want to praise General Hayden. He's been a 
tremendous asset to the country. He's straightforward and of 
course he's been very forthright with this Committee as he 
served as DCIA. He's a very, very fine man.
    What do you believe the IC has done to address the flaws in 
the analytic tradecraft that contributed to the Iraq WMD 
intelligence failure?
    Admiral Blair. Some of the things I'm familiar with, 
Senator--and in the little bit of looking at it that I've done, 
which is not as extensive as yours--the re-examination of the 
process of reaching an intelligence judgment, checklist of 
checking assumptions and bringing in contrary views. And these 
sorts of ways of putting together an assessment I think have 
been now institutionalized within the intelligence community.
    So I think the primary point there is to make it clear to 
policymakers how well you know what you're saying, because you 
have to come down and make a call. That's the intelligence 
business.
    But there are some calls that are 90/10 calls because you 
have really good intelligence and some calls which are 51/49 
calls because you didn't have that good evidence so you just 
have to use your judgment. I think the main thing is the people 
in the intelligence business have to make it clear to those who 
have to make the policies that this one we are very sure of and 
this one is based on making our best judgment based on 
relatively limited information so that the policymaker can 
avoid the wrong and make the right policies. I think that has 
been drilled into the intelligence community and, if confirmed, 
will certainly continue.
    Senator Hatch. Madam Chairman, my time is up, but could I 
ask one more question?
    Chairman Feinstein. Certainly.
    Senator Hatch. I'm the longest-serving person on this 
Committee. It's a very good Committee. Naturally I'm on so many 
other committees I can't give as much time to it as I'd like 
but I devote a lot of time to it as well.
    I particularly appreciate the time the Chairperson has 
given over these years. She has taken it very seriously, and I 
commend you to work with her as closely as you can.
    But a fundamental concern of mine when it comes to the 
questions of reforming the intelligence community has been the 
critique that in the past the intelligence community has not 
been a learning organization. When I speak of ``learning 
organizations'' I think specifically of the military. When 
soldiers, marines, airmen and sailors are not in combat, They 
are constantly in training. Even in combat every engagement is 
followed by a lessons learned exercise.
    For example, if a new type of IED is detonated at 4:00 p.m. 
this afternoon in Baghdad, that event is analyzed almost 
immediately. By morning our commanders in the theater will know 
about it. And then when not in combat the military is 
constantly studying and training. The military, in short, is a 
learning organization. Over your career in the military, a 
professional soldier, sailor, airman or marine will spend years 
in training and school in a twenty year career following their 
initial training; an intelligence officer will spend only 
weeks.
    Now this is of particular concern to me because I know that 
in this new conflict, the global war on terror, our 
intelligence officers in the field are learning a great deal 
about how to deal with armed groups, and I'm not sure if these 
lessons are being captured into evolving tradecraft or are 
taught to new officers or incorporated into an evolving 
doctrine. I'm unaware of the institutional mechanisms that are 
designed to do just that.
    Do you believe that the IC is a learning organization? 
Should it be? How often should officers be exposed to training 
and studies? What are the institutions of learning in the IC, 
and do you foresee changing those?
    Admiral Blair. Senator, of those questions the one I can 
answer unequivocally is number two. Yes, the intelligence 
community should be a learning organization. I have only a 
limited knowledge of the organizations to do it. I know there 
is a CIA Center for lessons learned, because I happen to know 
the director of it from my past life. I know there is a new 
director of the Intelligence University and the education 
component, as you say, is absolutely vital.
    So this is another of those areas that I bring some 
background within an organization that believed in learning. I 
carry that belief with me and I'll dive into it and make the 
proper changes there if they need to be made. And I look 
forward to consulting with you about it.
    Senator Hatch. Thank you, Admiral. I'm grateful for your 
service and your willingness to do this. It's a difficult job 
and a demanding job. I'm grateful for all the service you've 
given all these years.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Senator Hatch. 
Admiral, it looks like we've come to the end of this hearing.
    The Committee may have some questions for the record and 
will try to get them to you by the end of today.
    I'd like to mark this up as soon as possible. In order to 
do so, we will need to see the answers to the questions, so the 
quicker you can get those back to us, the quicker we can do our 
markup.
    Also I want to take a moment to thank Admiral McConnell and 
General Hayden for their service to our country and to the 
community. Those of us that have worked with them know that 
they did the very best they could and I think did some very 
strong and positive things for both the CIA and the community 
that the DNI heads. So their services are very much appreciated 
and I want to make that clear.
    I would also like to express my welcome to your wife, Diane 
Blair. Thank you for your patience during this hearing.
    I believe that completes our questions.
    Admiral Blair. May I make one final statement, Madam 
Chairman?
    Chairman Feinstein. Yes, you may.
    Admiral Blair. As I think over the last three hours, it 
seems we've been somber, negative and so on, and I just don't 
want to end on that note. If you confirm me, going in, I'm 
extremely optimistic about what we can do with intelligence for 
this country. We've got tens of thousands of incredibly 
dedicated, smart, hardworking people that want to do the right 
mission. You've given us a lot of money. It's a public figure. 
You've doubled it. We're going to win this puppy. This is not 
something I'm discouraged about. This is not something I have 
my tail between my legs about, nor does the entire community. 
We've got a mission. We're going to do it great, we're going to 
be worthy of the American people, and we're going to win it.
    So I don't want to end on a note of how difficult this is 
and how many mistakes have been made in the past. I wanted to 
end on a note of the incredible energy and capability and 
dedication and resources you've made available to the fine men 
and women of the intelligence services who go out there and do 
a great job.
    Chairman Feinstein. I appreciate that. I think we all 
appreciate the service of the men and women of the intelligence 
community, and there are a lot of them there. It's true the 
good things take care of themselves. The difficult problems and 
the untoward happenings always come to our attention, so 
necessarily we have to deal with them.
    I think what's important is that we have an openness 
between the Committee, between you, between the various 
agencies and that you are forthcoming with us. There's nothing 
that puts the Committee in a stone wall position more than 
being refused data or having someone be untruthful with us. So 
if we can have a candid, upfront, anticipatory relationship and 
include in when things are developing problems and what the 
solutions are and have an opportunity to discuss them with you, 
I think that's very helpful.
    I mentioned to you that one of our committee's best 
meetings was when General Hayden invited us to come over to 
Langley and we spent an hour and a half or so with them on 
certain classified programs. The back-and-forth was very useful 
and also enabled us to really understand the full course of 
what was being discussed, kind of away from the harassment of 
having to do two committees or be interrupted to go to a phone.
    So I hope you will facilitate more of those kinds of 
interactions. We're also going to put together a CODEL of the 
entire Committee, if you can join us, to go to some of the 
operations throughout the world so that the entire Committee is 
able to see the on-the-ground effort, the difficulties of that 
effort, and I hope come back much better informed for that 
trip. It will be a hard-working trip, I promise you that.
    Admiral Blair. I think it's a wonderful idea.
    Chairman Feinstein. Thank you. Thank you very much.
    If there's no further testimony to come before this 
Committee, the meeting is adjourned.
    [Whereupon, at 12:40 p.m., the Committee adjourned.]
                         Supplemental Material

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  

                                  <all>

</pre></body></html>
